<html>
<title> - MORE THAN A SHOT IN THE ARM: THE NEED FOR ADDITIONAL COVID-19 STIMULUS</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]









                 MORE THAN A SHOT IN THE ARM: THE NEED 
                    FOR ADDITIONAL COVID-19 STIMULUS

=======================================================================

                            VIRTUAL HEARING

                               BEFORE THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 4, 2021

                               __________

       Printed for the use of the Committee on Financial Services

                            Serial No. 117-1 
                            
                            
                            
                            
                            
                            
                            
                            
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                             _________
                              
                 U.S. GOVERNMENT PUBLISHING OFFICE
                 
43-964 PDF               WASHINGTON : 2021





















                            
                            
                            
                            
                            

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             ANN WAGNER, Missouri
GREGORY W. MEEKS, New York           FRANK D. LUCAS, Oklahoma
DAVID SCOTT, Georgia                 BILL POSEY, Florida
AL GREEN, Texas                      BLAINE LUETKEMEYER, Missouri
EMANUEL CLEAVER, Missouri            BILL HUIZENGA, Michigan
ED PERLMUTTER, Colorado              STEVE STIVERS, Ohio
JIM A. HIMES, Connecticut            ANDY BARR, Kentucky
BILL FOSTER, Illinois                ROGER WILLIAMS, Texas
JOYCE BEATTY, Ohio                   FRENCH HILL, Arkansas
JUAN VARGAS, California              TOM EMMER, Minnesota
JOSH GOTTHEIMER, New Jersey          LEE M. ZELDIN, New York
VICENTE GONZALEZ, Texas              BARRY LOUDERMILK, Georgia
AL LAWSON, Florida                   ALEXANDER X. MOONEY, West Virginia
MICHAEL SAN NICOLAS, Guam            WARREN DAVIDSON, Ohio
CINDY AXNE, Iowa                     TED BUDD, North Carolina
SEAN CASTEN, Illinois                DAVID KUSTOFF, Tennessee
AYANNA PRESSLEY, Massachusetts       TREY HOLLINGSWORTH, Indiana
RITCHIE TORRES, New York             ANTHONY GONZALEZ, Ohio
STEPHEN F. LYNCH, Massachusetts      JOHN ROSE, Tennessee
ALMA ADAMS, North Carolina           BRYAN STEIL, Wisconsin
RASHIDA TLAIB, Michigan              LANCE GOODEN, Texas
MADELEINE DEAN, Pennsylvania         WILLIAM TIMMONS, South Carolina
ALEXANDRIA OCASIO-CORTEZ, New York   VAN TAYLOR, Texas
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
NIKEMA WILLIAMS, Georgia
JAKE AUCHINCLOSS, Massachusetts

                   Charla Ouertatani, Staff Director 
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    February 4, 2021.............................................     1
Appendix:
    February 4, 2021.............................................    69

                               WITNESSES
                       Thursday, February 4, 2021

Anthony, Clarence E., CEO and Executive Director, National League 
  of Cities......................................................     4
Johnson, Derrick, President and CEO, National Association for the 
  Advancement of Colored People (NAACP)..........................     7
Murguia, Janet, President and CEO, UnidosUS......................     6
Spriggs, William E., Chief Economist, the American Federation of 
  Labor and Congress of Industrial Organizations (AFL-CIO).......     9
Strain, Michael R., Economist, American Enterprise Institute.....    10

                                APPENDIX

Prepared statements:
    Anthony, Clarence E..........................................    70
    Johnson, Derrick.............................................    74
    Murguia, Janet...............................................    77
    Spriggs, William E...........................................    88
    Strain, Michael R............................................   111

              Additional Material Submitted for the Record

Waters, Hon. Maxine:
    Written statement of the Credit Union National Association 
      (CUNA).....................................................   131
Hill, Hon. French:
    Letter from various undersigned organizations................   134

 
                      MORE THAN A SHOT IN THE ARM: 
                        THE NEED FOR ADDITIONAL  
                           COVID-19 STIMULUS 

                              ----------                              


                       Thursday, February 4, 2021

             U.S. House of Representatives,
                   Committee on Financial Services,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:10 a.m., via 
Webex, Hon. Maxine Waters [chairwoman of the committee] 
presiding.
    Members present: Representatives Waters, Sherman, Meeks, 
Scott, Green, Cleaver, Perlmutter, Himes, Foster, Beatty, 
Vargas, Gottheimer, Gonzalez of Texas, Lawson, San Nicolas, 
Axne, Casten, Pressley, Torres, Lynch, Adams, Tlaib, Ocasio-
Cortez, Garcia of Illinois, Garcia of Texas, Williams of 
Georgia, Auchincloss; Wagner, Lucas, Posey, Luetkemeyer, 
Huizenga, Stivers, Barr, Williams of Texas, Hill, Emmer, 
Zeldin, Loudermilk, Mooney, Davidson, Budd, Kustoff, 
Hollingsworth, Gonzalez of Ohio, Rose, Steil, Gooden, Timmons, 
and Taylor.
    Chairwoman Waters. The Financial Services Committee will 
come to order.
    Without objection, the Chair is authorized to declare a 
recess of the committee at any time.
    I want to remind Members of a few matters, including some 
required by the regulations which established the framework for 
remote committee proceedings. First, I would ask all Members to 
keep themselves muted when they are not being recognized by the 
Chair. This will minimize disturbances while Members are asking 
questions of our witnesses. The staff has been instructed not 
to mute Members, except when a Member is not being recognized 
by the Chair and there is inadvertent background noise.
    Members are also reminded that they may only participate in 
one remote proceeding at a time. If you are participating 
today, please keep your camera on, and if you choose to attend 
a different remote proceeding, please turn your camera off.
    If, during the hearing, Members wish to be recognized, the 
Chair recommends that Members identify themselves by name so as 
to facilitate the Chair's recognition. I would also ask that 
Members be patient as the Chair proceeds, given the nature of 
the online platform the committee is using.
    With that, I yield myself 5 minutes for an opening 
statement.
    Today, this committee convenes for our very first committee 
hearing of the 117th Congress. Today's hearing is entitled, 
``More Than a Shot in the Arm: The Need for Additional COVID-19 
Stimulus.'' Our focus today is on the urgent need for Congress 
to provide additional stimulus to address the COVID-19 pandemic 
crisis.
    Following his decisive victory in the November election, 
President Biden has a mandate to move on his agenda and lead 
the nation out of this crisis. Finally, we have real leadership 
in the White House to provide a serious, comprehensive response 
to this virus.
    From his first day in office, President Biden has been 
moving efficiently and effectively to right the ship and clean 
up the mess that his predecessor created. The stimulus package 
that Congress passed at the end of last year was the very first 
step, and served as an emergency stop gap to help individuals 
and families in distress, but it was clear then, and remains 
clear now, that much, much more relief is needed. President 
Biden has put forth a sensible and well-designed proposal, 
called the American Rescue Plan, to provide $1.9 trillion in 
essential funding and relief to individuals, families, and 
communities across the country.
    The American Rescue Plan provides additional direct 
stimulus payments, rental assistance, unemployment assistance, 
and emergency assistance for local, State and Territory 
Governments, as well as other critical relief and measures to 
respond to the crisis. Leading economists agree that it is 
critical for Congress to pass another large stimulus package. 
Federal Reserve Chairman Powell has also noted that, ``Support 
from fiscal policy will help households and businesses weather 
the downturn as well as limit lasting damage to the economy 
that could otherwise impede recovery.''
    According to the International Monetary Fund (IMF), the 
Biden stimulus plan would boost United States output by 5 
percent over 3 years. Last year, the United States economy 
shrank by the largest amount since 1946. Around 1.2 million 
small businesses closed between February and June of last year, 
and communities of color continue to be the very hardest hit. 
According to the Bureau of Labor Statistics, of all job losses 
in December where jobs were held by women, women of color 
suffered the most job losses. These are not statistics that 
warrant a wait-and-see approach. These realities demand urgent 
action. They demand the American Rescue Plan.
    This committee has played and will continue to play an 
essential role in providing much of this relief. The 
Administration needs critical funding to prioritize the 
development and production of desperately-needed medical 
supplies under the Defense Production Act (DPA). Renters need 
additional assistance, including emergency housing vouchers, to 
ensure that people in rural and suburban and urban communities 
can remain stably housed. More funding is needed for persons 
experiencing homelessness, who face even greater health risk as 
a result of the pandemic. We must also address the reality that 
homeowners across America face a foreclosure crisis if Congress 
does not step in to support modifications before the pandemic 
ends.
    And this committee will also need to come to the aid of 
businesses and their workers who are barely staying afloat, 
including small businesses, minority-owned businesses, and 
sectors hit hard, like the airlines. Finally, with new, more 
contagious, and potentially more deadly variants of the virus 
from the U.K., Brazil, and South Africa, all having now been 
detected right here in the United States, we need to mobilize 
the multilateral system and its institutions. And it is very, 
very clear that this pandemic cannot be defeated until it is 
defeated everywhere. And so, I look forward to hearing from our 
distinguished panel of witnesses on the need for relief, and 
the proposal that the Biden Administration has put forward.
    I will now recognize Congressman Hill, who will be standing 
in for our ranking member, Mr. McHenry, for an opening 
statement. Mr. McHenry has an emergency and cannot be with us 
right now. Mr. Hill, you are recognized for 5 minutes.
    Mr. Hill. Thank you, Madam Chairwoman. Thank you for 
convening this hearing today.
    Let's start with the facts. To date, Congress has provided 
$3.5 trillion to support the economy. This included direct 
payments to individuals, assistance for small businesses, 
rental assistance, and support for frontline workers, among 
many other strategies. This was a tremendous and often 
bipartisan effort that has provided a bridge for Americans 
reeling from this dual health and economic crisis. Now, thanks 
in large part to Operation Warp Speed and Congress' actions, 
vaccines are being distributed. To be clear, we are not out of 
the woods yet, but we are on the right path.
    Today, we are discussing what our economy needs to fully 
recover. I think the answer is clear: The best way to support 
the economy now is to reopen it safely. No amount of stimulus 
can replace open businesses, available jobs, and kids in the 
classroom. We should continue to be thoughtful and deliberate.
    I think we can all agree that the Coronavirus Aid, Relief, 
and Economic Security (CARES) Act was the right response at the 
right time. We were all facing an enemy that we knew nothing 
about. Since then, Congress has come together on five separate 
occasions to support families, individuals, workers, and small 
businesses. In fact, at the end of December, just over a month 
ago, we came together and put nearly $1 trillion in additional 
relief through the Congress, which was signed into law. This 
$900 billion package, money to be spent across our country, has 
yet to be spent. Just 1 month later, that money has not yet 
seen its full impact in our economy and for our families. 
Today, unlike 10 months ago, we have the benefit of real data, 
and the facts guide us in driving better policy outcomes.
    Last Tuesday, the Bureau of Labor Statistics reported that 
despite the surge in positivity rates throughout the summer and 
fall, States that were open, and open safely, had better 
employment rebounds than those States that were locked down. In 
fact, employment increased in 15 open States. California, in 
comparison, lost more than 52,000 jobs. Michigan lost more than 
64,000 jobs. In my own home State of Arkansas, our unemployment 
rate fell to 4.2 percent in December, from the peak in May of 
10.8 percent. Our tax revenues are up.
    What does the data tell us? It tells us that States can 
reopen safely. It tells us that if States aren't open, 
businesses cannot operate. If there are no businesses, there 
will be no jobs for individuals to come back to. Our focus 
should be on how best to safely reopen our economy. That means 
more testing and faster vaccine distribution to keep our 
communities healthy. It may mean more funding to ensure that 
frontline workers have the supplies they need to stay safe. At 
the same time, we need to make sure that additional funding 
will have an impact on Americans who need it the most. There 
are families and individuals who are hurting from the 
lockdowns. We should be targeting assistance to get them back 
into the workforce, not just creating more bureaucracy and 
throwing money at this critical problem.
    We should mirror the bipartisan compromise and serious 
legislating that went into the CARES Act and the other four 
bills that were enacted last year, and not spend time 
deliberating a partisan, wasteful, not targeted, $1.9 trillion 
stimulus bill. The data is pointing us towards what the economy 
needs. Now, let politics get out of the way and let us get to 
the work of providing the targeted help we need.
    Again, let me thank the Chair for holding this hearing. I 
yield back the balance of my time.
    Chairwoman Waters. Thank you very much. And Members, I am 
so pleased that we have a President with a plan.
    I want to welcome today's distinguished witnesses to the 
committee: Clarence Anthony, CEO and executive director of the 
National League of Cities; Derrick Johnson, president and CEO 
of the National Association for the Advancement of Colored 
People (NAACP); Janet Murguia, president and CEO of UnidosUS; 
Dr. William Spriggs, the chief economist at the American 
Federation of Labor and Congress of Industrial Organizations 
(AFL-CIO); and Dr. Michael Strain, an economist at the American 
Enterprise Institute.
    Each of you will have 5 minutes to summarize your 
testimony. You should be able to see a timer on your screen 
that will indicate how much time you have left, and a timer 
will go off at the end of your time. I would ask you to be 
mindful of the timer and quickly wrap up your testimony if you 
hear the timer, so that we can be respectful of both the 
witnesses' and the committee members' time. And without 
objection, your written statements will be made a part of the 
record.
    With that, Mr. Anthony, you are now recognized for 5 
minutes to present your oral testimony.

 STATEMENT OF CLARENCE E. ANTHONY, CEO AND EXECUTIVE DIRECTOR, 
                NATIONAL LEAGUE OF CITIES (NLC)

    Mr. Anthony. Good morning. Thank you, Chairwoman Waters, 
Congressman Hill, and members of the committee. I am Clarence 
Anthony. I am CEO and executive director of the National League 
of Cities, and a former mayor of South Bay, Florida, for over 
24 years. The National League of Cities is the nation's 
foremost resource and nonpartisan advocate for municipal 
governments and their leaders, representing 19,000 cities, 
towns, and villages, many in your districts. Today, I am 
speaking on behalf of all of those local governments that have 
gone above and beyond to overcome the COVID-19 emergency.
    Local government employees are truly on the front lines of 
enforcing measures that protect residents from catching and 
spreading COVID-19. Local community and economic development 
departments are stabilizing households and small businesses 
harmed by losses from the COVID-19 pandemic. Local elected 
officials are making painful budget cuts to preserve essential 
day-to-day operations that sustain cities as economic engines 
and places of opportunity. Residents are relying more than ever 
on the safety net programs that local governments are 
responsible for putting into action.
    We are grateful for the funding provided in prior emergency 
relief packages, but the fact remains that local budget 
revenues are far below normal collections. Municipal 
governments are alone facing a $90 billion shortfall on 1-year 
revenues. This does not include the losses facing County, 
State, Tribal, or Territory Governments. NLC supports the $350 
billion for emergency intergovernmental relief.
    Local leaders in your district will tell you this is not a 
bailout. Our local communities need a partnership, and we are 
fighting every day. Labor market data shows that local 
governments are still cutting jobs to offset revenue losses and 
unexpected expenses related to COVID-19. The December job 
reports from the Bureau of Labor Statistics state that 32,000 
jobs have been cut. Public sector employment is down by more 
than 1 million jobs, compared to February 2020.
    Emergency funding has provided aid to the private sector, 
to residents harmed by COVID. SBA Treasury programs provided 
businesses with access to credit. HUD programs provided funding 
to help homeless residents, renters, and small businesses. The 
role of local government in these programs is to connect 
emergency resources to those in need, and that required drawing 
up new programs lifting up our residents through creating 
operations that help small and minority-owned businesses 
overcome obstacles.
    There is no question that additional housing stability is 
important, and the National League of Cities (NLC) has 
reflected that in our Homeward Bound programs that focus on job 
security and health. As a result, however, of these layoffs and 
operation decline, many local governments are less able to 
enact this kind of guidance that they are immediately 
responsible for after the CARES Act was passed. The new 
Emergency Rental Assistance Program is a reasonable response to 
the emerging economy-killing eviction cliff.
    Roughly 1 out of every 5 people is in a rental in America. 
Forty million people are at risk. Local governments are the 
ones that implement these initiatives. We need support. Local 
governments are running out of ways to paper over dramatic 
losses, and even when that happens, declines will not stop the 
new programs from needing to be implemented.
    So, we are asking that these principles ensure that local 
governments are connected and engaged in the next bill: one, 
emergency funding should be fair and appropriate for each and 
every local government, with no minimum population threshold 
for eligibility; two, allocations of aid should be built on 
familiar and proven government revenue-sharing programs like 
the Community Development Block Grants; three, funding should 
be separate for States, counties, and municipalities; and four, 
eligible expenditures should be targeted to the widespread 
health and economic consequences of COVID-19, including 
unavoidable revenue shortfall.
    In conclusion, on Monday CBO warned that unemployment is 
likely, so we are asking for our shot as local governments. 
Thank you, Madam Chairwoman.
    [The prepared statement of Mr. Anthony can be found on page 
70 of the appendix.]
    Chairwoman Waters. Thank you very much, Mr. Anthony. Ms. 
Murguia, you are now recognized for 5 minutes to present your 
oral testimony.

    STATEMENT OF JANET MURGUIA, PRESIDENT AND CEO, UNIDOSUS

    Ms. Murguia. Good morning. Thank you, Chairwoman Waters and 
Ranking Member McHenry, for inviting me to testify today. My 
name is Janet Murguia, and I am the president and CEO of 
UnidosUS, the largest Hispanic civil rights and advocacy 
organization in the United States. For more than 50 years, and 
in partnership with our affiliate networks, we have worked to 
advance opportunities for Latino families across the country so 
they can achieve economic security and build wealth. Chairwoman 
Waters, thank you especially for leading this committee's work 
to address income inequality and racial wealth disparities.
    As I begin, I would note that inadequate recovery efforts 
from the last recession, when Latinos lost 66 percent of their 
wealth, contributed to the fragile economic status of the 
Latino community prior to the COVID-19 outbreak. As a result, a 
pre-pandemic 2020 poll found that most Latinos were already 
concerned about high housing costs, and said they struggled to 
make ends meet.
    And social, economic, and health disparities, coupled with 
systemic barriers to safety net assistance and relief, have 
disproportionately impacted Latinos and devastated our 
families. More than 70 percent of Hispanic workers are 
essential workers, which is why we are twice as likely to get 
sick and 3 times as likely to die from COVID-19.
    Latinos were also deeply impacted by job losses in hard-hit 
industries like hospitality, including those that did not allow 
telework, and Latino small businesses have struggled to stay 
open. Our polling shows that more than half of Latinos surveyed 
have lost job wages or businesses due to the pandemic, and 
these job and earnings losses put Latinos especially at risk of 
losing their homes to eviction and foreclosure.
    While the pandemic has placed financial pressure and strain 
on many Americans, the experience of Latinos in accessing 
Federal relief has been especially difficult, since many 
Hispanic immigrants in mixed-status families have been excluded 
from emergency Federal relief and aid. For example, the CARES 
Act excluded millions of mixed-status families, including more 
than 5 million children and spouses who are either U.S. 
citizens or green card holders, from stimulus payments. While a 
partial fix was enacted in December, millions of U.S. children 
and their families remain blocked from Federal relief.
    The President's American Rescue Plan is a huge improvement. 
Latino workers and their families will benefit from extended 
unemployment insurance, and housing protections and aid to 
prevent eviction. The plan's aid to State and local governments 
will help our local affiliated, community-based organizations 
and help them serve their hard-hit communities. But it is 
outrageous and immoral to continue denying aid to families and 
children in need during a national emergency simply because of 
their parents' immigration status, especially when they are 
experiencing hunger and food insecurity. So, Congress must 
include all of our neighbors and essential workers in emergency 
pandemic relief.
    We then would suggest some additions to the Biden plan, 
such as: ensure that HUD and Treasury assistance reaches the 
hardest-hit communities, including mixed-status families and 
immigrant workers; provide $700 million in support for housing 
counseling organizations to help homeowners and renters at risk 
of losing their homes; expand foreclosure protection, extending 
aid to all homeowners, and establish a homeowner assistance 
fund; set aside a portion of small business aid for impacted 
minority-owned business; and use the Community Reinvestment Act 
(CRA) to ensure that the hardest-hit communities can access 
available aid.
    A true American rescue plan is one that ends the cruel 
exclusion of families and includes everyone in relief. But to 
truly rebuild our economy better, we must also protect 
essential workers by finally updating our immigration system 
and providing a path to citizenship for immigrant workers and 
their families. We must do this now to stand up for the people 
who have been standing up for us, including through budget 
reconciliation if necessary. A real robust and lasting economic 
recovery depends on it. Thank you.
    [The prepared statement of Ms. Murguia can be found on page 
77 of the appendix.]
    Chairwoman Waters. Thank you very much. Mr. Johnson, you 
are now recognized for 5 minutes to present your oral 
testimony.

   STATEMENT OF DERRICK JOHNSON, PRESIDENT AND CEO, NATIONAL 
   ASSOCIATION FOR THE ADVANCEMENT OF COLORED PEOPLE (NAACP)

    Mr. Johnson. Good morning, and thank you, Chairwoman 
Waters, for your leadership, and Ranking Member McHenry. Thank 
you for the invitation to testify on this timely, important 
topic: the need for additional support for COVID-19 relief. I 
am excited about your leadership, Chairwoman Waters, at this 
crucial time as we look forward to working with you in ensuring 
that our communities are protected from this unfortunate health 
crisis. On behalf of the million activists who make up the 
NAACP from across the country in 47 States and 2,200 units, 
NAACP is the nation's oldest civil rights organization, this 
month at 112-years-old.
    Much of what I want to talk about will highlight the need 
as we have observed it on the ground across the country. Before 
I do that, I do want to recognize: Representative Ayanna 
Pressley for helping us in December to highlight the need for 
student loan indebtedness; the new Chair of the Congressional 
Black Caucus and member of this committee, Representative 
Beatty, for using her platform to continue to amplify the call 
for justice, equity, and equality; and former CBC Chairman 
Cleaver, who has been sounding the alarm on testing and racial 
disparities in this moment.
    As we look at this current crisis in the stimulus packages, 
we really want to focus on critical workers, and many of those 
critical workers are straddled with student indebtedness. In 
fact, if you look at the student loan crisis, African Americans 
and Latinos are disproportionately impacted because many of 
them are first-generation college students, but in total we are 
looking at about $1.7 trillion in student loan indebtedness.
    If we consider discharging much of this, if not all, it can 
be seen as an economic stimulus. Much of the funds that are 
used to pay back these loans could infuse capital back into our 
economic system and caboose our GDP. In fact, there are tools 
that are currently in place to provide support for critical 
workers under the Public Service Loan Forgiveness Program, 
where many of our citizens participate in ensuring that our 
society keeps moving. These are government workers, our 
teachers, and others who have to go to work every day to ensure 
that we are provided the necessary resources for which our tax 
dollars pay.
    Far too many of them are underemployed and over-indebted 
because of the student loan burden. The tools in the toolbox 
through the automatic discharge after 10 years could be 
accelerated and it could be immediate. We celebrate the 
forbearance that the new Administration just called for, but if 
we really look closely at how to stimulate our economy, this is 
an effective tool. We have given more away in tax breaks and 
other stimulus to corporations. In fact, if you look at the 
ongoing tax break that was provided over the last 4 years on 
top of the stimulus packages for corporations, it more than 
doubled the amount of student loan indebtedness.
    It is the right thing to do in this moment of crisis. It is 
a way to boost our economy, and it is a way to ensure that 
those individuals who are on the front line providing support 
for us, and municipal governments and State governments, and 
our teachers in the classrooms will be cared for in ways in 
which it could pay dividends for our economy.
    In Houston, as we begin to look at the eviction crisis, 
many people have to be on the front lines to prevent evictions 
as a result of some of the deadlines about to expire. We 
partner with BeyGOOD, Beyonce's group and we created a program, 
and we were overwhelmed with the need of individuals who are on 
the verge of being evicted. In fact, it was so overwhelming 
that we had to shut down the program within 48 hours, because 
37,000 families, over 50,000 applications, came in so quickly 
that we had to shut the program down.
    It is clear that there is a crisis. This committee can 
continue to hold businesses and banks accountable to ensure 
that in this moment of economic transition, evictions are 
stalled and we are able to put our economy right, and people 
can fully participate. And when you look at the vaccine and the 
disparity in which the vaccines are being deployed, we have to 
make sure those who are most impacted are provided with the 
necessary support.
    This COVID moment has impacted African Americans to where 1 
out of 660 Black persons in this country are dying because of 
COVID, and the vaccine deployment has not been equitable. In 
the City of New York, we found that high-wealth individuals 
were going to Latino communities to get the vaccines, although 
the vaccines were placed there for the Latino community to 
receive. We have to have a better approach of deploying the 
vaccine. So, when we look--
    Chairwoman Waters. Thank you, Mr. Johnson. Your time has 
expired.
    Mr. Johnson. Thank you.
    [The prepared statement of Mr. Johnson can be found on page 
74 of the appendix.]
    Chairwoman Waters. And let me just take a moment to thank 
Mr. Anthony and Ms. Murguia for their very fine testimony. Dr. 
Spriggs, you are now recognized for 5 minutes to present your 
oral testimony.

STATEMENT OF WILLIAM E. SPRIGGS, CHIEF ECONOMIST, THE AMERICAN 
 FEDERATION OF LABOR AND CONGRESS OF INDUSTRIAL ORGANIZATIONS 
                           (AFL-CIO)

    Mr. Spriggs. Thank you. Thank you, Chairwoman Waters. I 
appreciate your leadership and this opportunity to speak to 
your committee on the issues of our nation's crisis. I am happy 
to offer this testimony on behalf of the AFL-CIO, America's 
house of labor, representing the working people of the United 
States, and based on my expertise as a professor in Howard 
University's Department of Economics.
    My testimony today will discuss the immediate challenge our 
nation faces of a severely damaged labor market and the need to 
conduct an all-out, coordinated Federal, State, and local 
Government fight to tame the COVID virus. We will need to have 
in place a full fiscal response to coordinate with current 
monetary policy to ensure our economy can emerge with a robust 
and sustainable growth path by addressing inequality. That 
means we need policies to address the damage of the virus to 
economic activity, ensuring all of our efforts to reduce the 
incidence of the virus, and to regain American leadership 
globally to heal the global economy as the United States did at 
the end of World War II.
    Despite improvements since April 2020, when our nation lost 
the greatest number of payroll positions since World War II, 
through December, we were still down 9.8 million payroll 
positions since February 2014. In March, Congress acted rapidly 
to pass several key economic supports, but the efficacy of 
those policies began to show weakening and waning job gains 
since July, after key provisions, like the $600 in additional 
weekly unemployment compensation, phased out, so in December, 
we were again losing jobs. Today, our labor market is missing 
almost 1.8 million more jobs from its peak than we stood at the 
depth of the Great Recession in September 2010, compared to 
that labor market's peak in January of 2008.
    Despite congressional efforts to put substantial sums into 
the economy in the second quarter of last year to make up for 
lost jobs, slower business, and to help develop a vaccine, in 
the 4th quarter of last year, the economy grew at a 
significantly slower rate than the 3rd quarter, and we began 
this year with an economy that is smaller than it was in the 
2nd quarter of 2018. This is a dire situation. Our situation is 
complicated because our job losses stem from a failure to 
control the spread of the virus.
    Individuals living in high-income areas have drastically 
reduced their consumption of services, especially personal 
services--restaurants, brick and mortar retail consumption, and 
travel--in response to the prevalence of the virus, not in 
response to health orders to limit business activity, and this 
is a vital portion of consumption that is shrinking our 
economy.
    To tackle the source of our economy's woes, we need a 
coordinated effort by the Federal Government with State and 
local government partners, but State and local employment 
levels are depleted. Through December, we had 373,000 fewer 
State Government workers and a little more than 1 million fewer 
local government workers. We cannot bring all of the public 
resources to bear on this crucial fight with so many fewer 
public sector workers. To get ahead of this rapid virus, we 
need congressional action now, because we failed in December to 
have the money for State and local workforces.
    It is important to also look at the important things that 
were missing. We need the $400 in unemployment compensation 
added back that was key to what was happening in the 3rd 
quarter recovery. We need the pandemic relief payments of 
$1,400 because that was key for what was making the economy 
expand in the 3rd quarter. And we need to increase the Federal 
minimum wage to ensure that we will have wage growth coming out 
of this recovery and to ensure racial equity as wages recover. 
We know that there will be excess monopsony power that will get 
in the way of restoring the wage growth that we need for our 
economy to recover.
    We need to have the United States back special drawing 
rights at the International Monetary Fund (IMF) so that all 
world governments will be our partner in defeating this virus. 
No one will be safe until all countries can win this war.
    [The prepared statement of Dr. Spriggs can be found on page 
88 of the appendix.]
    Chairwoman Waters. Thank you, Dr. Spriggs. Dr. Strain, you 
are now recognized for 5 minutes to present your oral 
testimony.

STATEMENT OF MICHAEL R. STRAIN, ECONOMIST, AMERICAN ENTERPRISE 
                           INSTITUTE

    Mr. Strain. Thank you, Chairwoman Waters and Ranking Member 
McHenry for the invitation to testify today. And thank you, 
Congressman Hill and members of the committee. It is an honor 
to be here.
    Two ways to assess the need for economic support are top 
down and bottom up. The top-down approach attempts to assess 
the amount by which the economy is underperforming and 
determine how much government spending would be required to 
bring the level of economic activity back to where it should 
be. More precisely, the quantity of goods and services that 
could be sustainably produced given the economy's underlying 
technology and labor and capital resources is determined and 
compared to the economy's actual production. The difference 
between the economy's underlying potential and actual 
performance is called the output gap. The size of the output 
gap can be used to determine the appropriate size of an 
economic stimulus package.
    Alternatively, Congress can take a bottom-up approach. This 
way of crafting economic support would pay less attention to 
the size of the output gap and more to the specific needs 
facing the economy. Today, those needs clearly involve 
increasing the nation's capacity to distribute the vaccine and 
to test people for COVID-19. Of course, in practice, applying 
both a top-down and bottom-up approach makes the most sense, 
but judged by either criteria, President Biden's proposed $1.9 
trillion American Rescue Plan is too large and too wide in 
scope.
    According to my calculations based on Congressional Budget 
Office (CBO) data, the 2021 output gap will be around $420 
billion. This calculation includes the effects of the $900 
billion law Congress passed just 6 weeks ago. The policy debate 
seems to have all but forgotten that Congress appropriated 
around $900 billion just a month and a half ago, but factoring 
that in, the output gap will be around $420 billion for the 
current year. From a macroeconomic top-down perspective, the 
President's proposal would fill the 2021 output gap several 
times.
    It is commonly argued that the risk from spending too 
little is larger than the risk for spending too much. I agree, 
but this is not the same as arguing that the size of an 
additional stimulus package should be untethered to estimates 
of the underlying economic need. Any assessment of the right 
size for another stimulus should start with a good estimate of 
the output gap, and given the [inaudible] calculating that gap 
and the balance of risks, it is prudent to err on the side of a 
slightly larger package.
    The future paths of gross domestic product to the output 
gap and consumer prices are very uncertain. Congress should 
recognize the many risks from spending too much and 
[inaudible]. From this macroeconomic perspective, the 
President's $1.9 trillion proposal is clearly too large. While 
the proposal contains several important components that 
Congress should enact, from a bottom-up microeconomic 
perspective, many major components of the plan are either 
unnecessary or will hold the recovery back.
    For example, direct checks to households earning a six-
figure incomes that have not experienced employment loss are an 
unnecessary and imprudent use of government spending. The 
proposed $400 Federal supplement through September to standard 
State-provided unemployment insurance benefits would prolong 
the period of labor market weakness by incentivizing unemployed 
workers to remain unemployed. Raising the Federal minimum wage 
to $15 an hour [inaudible] workers in many States. As a moral 
proposition, a bill that would destroy jobs for low-wage 
workers while handing out checks to employed upper-middle-class 
households is deeply problematic.
    A bill that was more focused and that did not contain these 
harmful or unnecessary provisions would also be more aligned 
with the overall macroeconomic need and would better address 
our specific economic challenges. A bill that provided adequate 
funding for vaccine distribution to strengthen the social 
safety net and provide needed relief to State and local 
governments would be reasonable and advisable. It would cost 
under $750 billion, would be focused on current economic and 
social need, [inaudible] gap. Thank you.
    [The prepared statement of Dr. Strain can be found on page 
111 of the appendix.]
    Chairwoman Waters. Thank you, Dr. Strain. I now recognize 
myself for 5 minutes for questions.
    This is the first week of Black History Month. While there 
is so much to celebrate and honor, we know that this pandemic 
has taken a particular toll on both renters and homeowners of 
color. According to the latest Census data, renters and 
homeowners of color are significantly more likely to be behind 
in paying their rent or mortgage, putting them at greater risk 
of eviction and foreclosure. Before the start of the CDC's 
eviction order, researchers estimated that up to 40 million 
renters could face eviction. More recently, Moody's Analytics 
estimated that renters owe more than $57 billion in back rent, 
utilities, and additional fees. In the second quarter of 2020, 
mortgage arrears totaled an estimated $16.3 million.
    Since the pandemic began, it has been my top priority to 
ensure that families remain in their homes, and last year, I 
successfully sought to secure $25 billion in emergency rental 
assistance. But as I have said, that was just the first step, 
and there is much more work to be done, and now is the time to 
do it.
    Mr. Spriggs, without taking further action to protect 
renters and homeowners, we could see a wave of foreclosures and 
evictions in 2021. Can you tell us, based on your research, how 
such a wave of evictions and foreclosures would impact the 
American economy, both in the short term and the long term?
    Mr. Spriggs. Thank you, Chairwoman Waters. Yes, this is a 
vital problem to address, and thank you for your leadership on 
this issue. It will complicate things, which is why we have the 
urgency of acting now. People, as you mentioned, are in 
arrears. The moratorium only means they will not be evicted 
now, and the $600 that they received at the beginning of 
January has already been spent because they got behind from the 
period of July through December, when Congress refused to 
respond to the Health and Economic Recovery Omnibus Emergency 
Solutions (HEROES) Act that the House passed, thanks to the 
leadership.
    Those dollars are gone. Those households are in desperate 
need of assistance and rental assistance so that when we get 
out of this situation, they will be able to stay in their 
homes. If we allow people to become homeless, we will have 
scarring that we cannot solve. It will be more expensive. This 
is not the time to be penny wise and pound foolish because 
people are already behind, and that is why we must do this now. 
We do not have months to wait. We already know their situation. 
We need to act now.
    Chairwoman Waters. Mr. Johnson and Ms. Murguia, can you 
tell us about the current housing instability that Black and 
Latinx communities are experiencing across the country, and how 
it compounds existing socioeconomic inequities?
    How can resources, like emergency rental assistance or 
housing vouchers, help stabilize the hardest-hit communities? 
Thank you.
    Mr. Johnson. Sure. At the NAACP, we tried to provide some 
support. We opened up a portal to help home renters. Within 48 
hours, our system crashed because we had over 37,000 people 
apply, literally. That is on top of the many workers, 
particularly in the southern States, who are underpaid, who 
work in critical areas, and they are making the necessary 
support, in addition to the exposure that they are bringing 
home to their families in this COVID moment. Your actions and 
your efforts could help support those families to become sturdy 
in this moment as we rebuild our economy.
    Many southern States underpay their State and local 
workers, including teachers. A lot of these teachers are home 
renters. So, we are asking teachers under economic stress and 
duress to teach our young people for a future when they cannot 
be in a comfortable position in this present. Your assistance 
is desperately needed in this moment.
    Chairwoman Waters. Thank you very much. My time has 
expired. I now recognize Mr. Hill for 5 minutes of questions.
    Mr. Hill. Thank you, Madam Chairwoman, and I thank our 
witnesses for the really useful information.
    Something that is so important to Congress, particularly 
for Republicans, is assessing, after nearly $4 trillion in 
appropriated funds plus the strong support of the Federal 
Reserve System during 2020, how much more targeted relief and, 
directly, where is our challenge? So Dr. Strain, I really 
appreciated you sort of assessing that output gap issue, though 
when you look at the underlying potential and you look at the 
actual performance and find that gap, based on CBO's, something 
that the Congress studies quite closely, long-term economic 
analysis that was released on Monday, is there an appropriate 
spectrum of stimulus that Congress should consider? In other 
words, is President Biden's proposal of $1.9 trillion right, or 
should it be something smaller? Reiterate that point. Let me 
give you a minute to talk about that.
    Mr. Strain. Thank you, Congressman. It is really an 
excellent question. The policy debate seems to have forgotten 
that Congress just appropriated $900 billion 6 weeks ago, and 
that money hasn't fully been spent. It is still making its way 
through the system, and it is going to have a big impact on the 
economy. That is a larger appropriation than Congress 
appropriated following the Great Recession that began with the 
2008 financial crisis.
    There is a risk of Congress appropriating more money than 
the economy needs and pushing the economy above its sustainable 
level of production. This risk is amplified by significant 
growth in the money supply. It is amplified by supply chain 
disruptions. It is amplified by diminishments and the 
productive capacity of the economy. It is amplified by the fact 
that households are sitting on over $1 trillion of unspent 
savings. And it is amplified by the possibility that when the 
vaccines are in wide distribution in the second half of the 
year, households are going to go on a spending spree.
    Congress is correct, I think, to be thinking about the 
economic need, but that needs to be scaled to reflect both the 
risks of doing too little and the risks of doing too much, and 
there are real risks of doing too much.
    Mr. Hill. Thank you. That is something we talked about in 
the Congressional Oversight Commission of the CARES Act with 
the Federal Reserve and the Treasury, precisely that, 
particularly as it relates to State and local governments, 
because we don't always count that a great deal of that $4 
trillion in appropriated money goes to support our State and 
local government activities. Thank you for that.
    I want to switch subjects briefly. There has been reference 
to the minimum wage here. I wonder if you agree with former 
economic adviser to President Clinton and President Obama, 
Larry Summers, when he says that more Economic Impact Payment 
(EIP) is not the best use of the economic stimulus at this 
time. He even cites that it is not effective, and you just 
referenced that there is $1 trillion out there in additional 
unspent savings. Can you address that for me?
    Mr. Strain. Yes. I think that almost any use of half a 
trillion dollars would be better than giving checks to 
households who are in six-figure incomes and who haven't 
suffered any employment loss. More than that, I think a bill 
that both would increase the Federal minimum wage to $15 an 
hour, and that gives checks to households who earn six-figure 
incomes and haven't experienced unemployment loss, really has 
some moral problems as well. The President's plan would destroy 
low-wage jobs while boosting middle-class incomes. I don't 
think that is what Congress should be doing, particularly in a 
period of labor market weakness.
    Mr. Hill. Thank you, Dr. Strain. Let me say that all of 
this combined, this work, is over 20 percent of GDP, which is a 
tremendous amount of stimulus. Mr. Spriggs referenced the 
support for our poor, struggling countries in the world facing 
the pandemic, and referenced the use of special drawing rights 
from the International Monetary Fund. Madam Chairwoman, I would 
like to submit my op-ed in the Wall Street Journal for the 
record, with your permission.
    Chairwoman Waters. Without objection, it is so ordered.
    And the gentleman's time has expired.
    Mr. Hill. Thank you, Madam Chairwoman.
    Chairwoman Waters. We will move on. The gentleman from 
California, Mr. Sherman, who is also the Chair of our 
Subcommittee on Investor Protection, Entrepreneurship, and 
Capital Markets, is now recognized for 5 minutes.
    Mr. Sherman. Thank you, Madam Chairwoman. As I pointed out 
in the Democratic Caucus, Madam Chairwoman, you preside as Full 
Committee Chair over a committee today of Full Committee 
Chairs. I will be the only one out of the first six Democratic 
questioners who does not preside over, of course, our Financial 
Services Committee, the House Oversight and Reform Committee, 
the House Small Business Committee, the House Foreign Affairs 
Committee, or the House Agriculture Committee.
    Madam Chairwoman, I thank you for mentioning that we are 
not safe until we defeat this disease everywhere. There are 
those who are focusing only, and we should focus on, 
vaccinating all Americans, but until all 7 billion-plus people 
in the world are vaccinated, we haven't met our moral 
responsibility. The world economy is still suffering from this 
disease, but perhaps most importantly, there are billions and 
billions of people outside the U.S. who can be infected. That 
is where the disease will replicate. Whenever it replicates, it 
mutates, and some of those mutations can lead to more virulence 
and more contagious disease, and perhaps worst of all, a 
version of this disease that cannot be dealt with by the 
vaccines we have developed.
    Speaking of vaccines, we did a great job in this country of 
developing three vaccines, but we initially were throwing away 
Pfizer vaccines after five dosages came out of a bottle that 
held almost seven dosages. We threw it away due to the FDA. 
Now, we are still throwing away vaccine when we could get half 
a dose out of one bottle and a half out of another. We are 
manufacturing the vaccine as quickly as we can in the factories 
of the company that invented it, but no company has licensed 
one of its competitors to create vaccine in their own factory. 
And we have just begun testing lower dosages to see their 
effectiveness, although the bulk of available medical science 
shows that much lower dosages would be effective, particularly 
in those under age 55. We have started those studies 8 months 
late.
    I want to thank Mr. Anthony for being here and for pointing 
out that our municipalities are losing about $90 billion in 
revenue, that we have a million public sector jobs, and I know 
there is a study from the Economic Policy Institute that 
estimates that by the end of this year, we could be losing 5.3 
million public sector jobs. Now, that is, of course, a problem 
for the person who loses their job. It is bad for the economy 
in that those people aren't able to spend. But I want to focus 
on the services we lose when we don't have those people working 
for us. Looking at Los Angeles as one municipality, it spends 
roughly one-third of the money, more than one-third on public 
safety, so using that as an example, we are looking at $30 
billion less spent for public safety.
    So my question, Mr. Anthony, is, if someone in Congress 
votes against providing revenue to municipalities, are they, in 
effect, voting to defund our police, because obviously any city 
that spends a third of its money on public safety, and my city 
does and most cities do, is going to have to make cuts in all 
of its functions. And if those cuts are pro rata, we are 
looking at a $30 billion dollar defunding of our police. Is 
that a real, practical effect of voting against this bill?
    Mr. Anthony. Congressman, thank you so much for that 
question. Local governments have to balance their budgets, and 
as Congressman Cleaver, a former mayor, knows very well, we 
will have to look at all of our programs, including our 
permitting process, and our housing programs. And, in fact, we 
will have to look at our public safety, fire and police, if we 
don't get additional funding, because it is essential that we 
balance our budget. We are not like other levels of government, 
so we will have to look at that, and I believe that would 
probably be a difficult thing for us to do, but we would have 
to look at all of the programs.
    Mr. Sherman. I would hope that those who vote against this 
bill will go to the House Floor and say that they are in favor 
of defunding those municipal services and that they stand by 
the votes to defund the police. I yield back.
    Chairwoman Waters. Thank you very much. The gentlewoman 
from Missouri, Mrs. Wagner, is recognized for 5 minutes.
    Mrs. Wagner. Thank you, Madam Chairwoman, and I thank our 
witnesses for being with us today.
    I am going to get straight to it, and I would like folks to 
keep their answers as brief as possible.
    Dr. Strain, in early March, economic data directly pointed 
to the need for congressional action to support the economy, 
and by the end of the summer, our economy had stabilized, but 
small businesses and their hard-working employees needed 
additional support as they continued to face lockdown measures. 
Congress acted and provided approximately $3.5 trillion in 
response to the COVID-19 pandemic, and in the late fall, 
economic data indicated a downward trend.
    In December, Congress, again, acted to provide relief. 
Today, I am still hearing daily from my constituents who have 
yet to receive their stimulus checks or who have been unable to 
apply for the next round of Paycheck Protection Program (PPP) 
or Economic Injury Disaster Loan (EIDL) loans. If my 
constituents haven't even gotten access yet to the funds we 
provided in December, the nearly trillion dollars, $900 
billion, how can we expect that useful economic data exists 
about whether or not another new round of relief funding is 
even required?
    Dr. Strain, do you agree that Congress should rely on 
quality economic data to identify the weak points in fiscal 
relief efforts?
    Mr. Strain. Yes, of course. I agree with that, and I think 
that there have been some problems in getting CARES Act funds 
to the households and businesses who need them. The 
overwhelming majority of the time, those processes work, but 
there are times when they haven't. And we do know that 
households have received checks. We know that unemployed 
workers have received unemployment benefits. We know that 
businesses have received PPP. But those processes haven't been 
perfect, I agree with you.
    Mrs. Wagner. The problem here is we are not really getting 
quality economic data to identify, I think, the weak points in 
our fiscal relief efforts.
    Other witnesses today have focused on the positive impacts 
of further economic relief, but data shows that there can be 
negative outcomes, as well, from excessive and mostly 
untargeted stimulus spending.
    Can you please address what specific negative economic 
impacts may occur, should too much untargeted stimulus be 
placed into the economy, Dr. Strain?
    Mr. Strain. There is a risk of the economy overheating. 
There is a risk of economic demand outpacing growth and 
economic supply, which can lead to price inflation. That risk, 
I think, is much more concerning in the second half of this 
year when people are vaccinated, and they are out there 
spending money.
    Mrs. Wagner. The Penn Wharton budget model yesterday 
released a study estimating that nearly three-quarters of 
economic stimulus checks will go toward savings and will not be 
used to stimulate the economy.
    Are you able to quickly address this study and its results?
    Mr. Strain. Yes, as a general matter, I think the evidence 
suggests that if you look at households with income above, say, 
$75,000, they save the overwhelming majority of the checks they 
receive, and that savings is kind of a double-edged sword, 
because it reduces concern about economic overheating, but it 
amplifies concern about Congress prudently spending money.
    There is just no reason, in my view, for Congress to write 
checks to six-figure households who haven't suffered any 
employment loss so they can pay down credit card bills or make 
advance payments on other debts.
    Mrs. Wagner. It is certainly not stimulating the economy. 
And I want to make the point clear and reiterate again that 
currently, there is more than $1 trillion of previously-enacted 
stimulus funding remaining to be spent. These remaining funds 
include: SBA's PPP program, $280 million; health spending, $239 
billion; EIDL loans, $172 billion; unemployment insurance 
expansion, $172 billion; education funding, $59 billion; State 
and local aid, $58 billion; stimulus checks, $52 billion; food 
stamps, $33 billion; Childcare and Development Block Grants, 
$10 billion; and agriculture, $29 billion.
    Should Congress see positively where more targeted support 
is needed before passing another large stimulus package, that 
is my main concern here.
    I believe I am out of time, and I yield back.
    Chairwoman Waters. Yes, the gentlewoman's time has expired.
    I now recognize the gentleman from New York, Mr. Meeks, who 
is also the chairman of the House Committee on Foreign Affairs, 
for 5 minutes.
    Mr. Meeks. Thank you, Madam Chairwoman, and thank you to 
all of the witnesses for your testimony today.
    I am going to start out with Mr. Anthony. I heard Mr. Hill 
state that essentially, we faced an enemy we knew nothing about 
in the beginning. And I know that my State of New York was one 
of the hardest-hit States first, and it seemed to me at that 
particular point, the then-President of the United States 
basically underplayed what should and what could be done at 
that particular time, as well as aid to States, I know to New 
York and to States that were initially hit.
    So, my question is, if you had a State like New York, which 
was hit at a time when no one knew what the pandemic was and 
how to deal with it, and the States had to take on that burden 
themselves, can you speak to the budgetary needs of the first-
hit States that now need this money, as far as aid to cities 
and States, as far as them being able to benefit from already, 
and other States learning from them and the practices that they 
had to undergo, being one of those first States and earlier 
States hit?
    Mr. Anthony. Yes. Thank you very much, Congressman Meeks, 
for that question.
    All of us have indicated that this is a pandemic that none 
of us was prepared for, and so when we received the CARES Act, 
as Congress knows, those first dollars went to States and 
cities with populations of 500,000 or more. And what local 
governments under 500,000 had to do was to go begging State 
Governors and others for those dollars to address the problems 
that they were facing in terms of the implementation of the 
response.
    Cities, the mayors, the councilmembers, rural cities, small 
and large cities, as you said, Congressman Meeks, as well as 
States, had to put an infrastructure system together. We did, 
but yet, we spent money at the city level that we did not have, 
to respond to the needs, and now we are at $90 billion, 
estimated, that we have lost, plus all of the employees, 
32,000, up to a million employees, we have had to lose, because 
we don't have the reserves, we don't have the budget dollars.
    So, we are just asking that $350 billion be provided to 
State and local governments to continue helping America return 
to creativity and jobs and recovery. So, that is the bottom 
line. We weren't prepared. America wasn't prepared, but we want 
some additional dollars.
    Mr. Meeks. Thank you for that.
    And Dr. Spriggs, many economists have argued that our 
recovery from the 2008 financial crisis was so slow and drawn 
out because we did too little with respect to economic 
stimulus; accordingly, certain communities were 
disproportionately impacted and lost wealth unnecessarily. So, 
in your opinion, what is riskier, doing too little by way of 
stimulus or doing too much?
    Mr. Spriggs. It is far riskier in this situation that we do 
too little. We must think big.
    The fear of inflation that we heard about, that will occur 
if we don't do enough. Because if we don't keep workers intact 
and whole so that their employers can find them, if we let 
workers become homeless, it will be harder to reconnect workers 
and reignite the economy.
    We have to take care of the workers who are most directly 
impacted now with adequate support for their rent, adequate 
support for their income, adequate support for those who fall 
through the cracks because their unemployment insurance needs 
drastic modernization.
    So, my fear is not that we are going to do too much, it is 
that we will do too little, and the outcome will be that it 
will be too difficult to put our labor market back together.
    Mr. Meeks. Thank you so much.
    I am out of time, so I will yield back.
    Chairwoman Waters. Thank you so very much, Chairman Meeks.
    The gentleman from Florida, Mr. Posey, is recognized for 5 
minutes.
    Mr. Posey. Thank you, Madam Chairwoman, and Mr. Ranking 
Member. It is good to be back here on the Financial Services 
Committee again in this new Congress, and thank you for holding 
this hearing today.
    The events of last year have been like nothing we have ever 
experienced in our lifetimes. The pandemic has brought 
intolerable suffering and lasting economic harm.
    In this time of pain, Congress has to help so many 
Americans, and Congress has enacted over $3.5 trillion in 
relief for people who, through no fault of their own, faced 
unemployment, shutdowns, and the inability to pay rent, put 
food on the table, and hold their businesses together.
    I know all of the Members have worked very hard to help 
people access COVID relief programs, and I am proud to be able 
to help my constituents figure it out. But as I have said, we 
have spent $3.5 trillion on COVID relief since last spring. 
During Fiscal Year 2020, our deficit was $3.1 trillion. Since 
October 2019, the Federal debt held by the Federal Reserve has 
grown from $2.4 trillion to nearly $4.9 trillion by the end of 
the third quarter of last year.
    That means that during this period, the Fed monetized about 
$2.5 trillion of added debt spending. We have been financing up 
to two-thirds of our debt by running printing presses. Since 
new relief spending will come at the expense of borrowing money 
from the Fed, I support proposals to moderate the next round 
and target such spending on families and workers who need it.
    I am particularly concerned about initiatives to provide 
extraordinary assistance to State and local governments, and I 
would like to ask Dr. Strain if it would be fair to replace 
COVID-19-related revenue losses of all of the States, dollar-
for-dollar? Wouldn't it be unfair to the States that have a 
more balanced approach to government and its size?
    Mr. Strain. Thank you, Congressman.
    I think that it is appropriate for Congress to help State 
and local governments with revenue losses, but that help should 
be tied to pandemic-related revenue losses. So, Congress should 
not bail out States that misuse rainy-day funds. And Congress 
certainly shouldn't bail out mismanaged pension funds.
    But I think an amount close to $100 billion would be 
appropriate for Congress to give to States and localities, many 
of whom really are in need. My concern is that not doing so 
will act as a drag on the national economic recovery, because 
States and localities won't be able to hire back workers they 
have laid off.
    Mr. Posey. Thank you very much for that answer.
    How do you think we should go about determining the amount 
of the distribution?
    Mr. Strain. A formula could be created that looked at where 
State revenues were on the eve of the pandemic, and then 
attempted to estimate how States actually fared, relative to 
reasonable projections that, again, focused on pandemic losses.
    Some States wouldn't need much money at all. Some States 
have seen sales taxes recover, and have good income tax 
revenue. But there are some States, particularly States that 
rely a lot on tourism or that rely on more in-person services, 
that have taken a big hit as a consequence of the pandemic, and 
I think it is appropriate for Congress to help, if for no other 
reason than to support the overall national recovery.
    Mr. Posey. I agree, and I thank you for that.
    What do you think the major items should be and how should 
we estimate them, do you have any thoughts on that?
    Mr. Strain. Congress has already appropriated several 
hundred billion dollars to States and localities. Much of that 
funding is for specific programs, for example, for the Medicaid 
program. I think what is needed now is to give States more 
discretion so they can fill in the holes that are unique to 
their States and localities.
    Mr. Posey. Thank you very much.
    Madam Chairwoman, I yield back.
    Chairwoman Waters. Thank you very much.
    The gentleman from Georgia, Mr. Scott, who is also the 
chairman of the House Committee on Agriculture, is recognized 
for 5 minutes.
    Mr. Scott. Thank you very much, Madam Chairwoman.
    This is a great hearing. Let me just sort of get right to 
the point here.
    Earlier on, Chairwoman Waters had asked me to kind of zero 
in on helping with the HEROES Act and the preceding stimulus 
packages on the housing relief for homeowners. And so, we put a 
package together that would get, I think initially, I forgot 
the figure now, but right now, that figure is at $25 billion 
for rental assistance. We started out with some higher numbers.
    We also wanted to get money in to help with utilities. So, 
right now, it is $5 billion for aid to help keep the water and 
the lights and the electricity on.
    But then when we got down to the mortgage assistance, we 
are still in a process of trying to get that in. So, Mr. 
Anthony, I want you to comment on how important it is.
    And we also have to understand one of the reasons is that 
Chairwoman Waters and I were here back during the time, and I 
think it was 2008 when they had the Wall Street breakdown, and 
we put the Hardest Hit Program, which dealt with keeping folks 
in their homes. This is critical, but right now, we don't have 
anything there.
    I wanted to share with the committee what the progress is 
on that right now. Our House Financial Services Committee, the 
Senate Banking Committee, and the White House right now are 
trying to get language in.
    So, I wanted to get your opinion, Mr. Anthony, because, 
even with some of the money that we have gotten in this area, 
even back in 2008, 2010, it went to the State to be able to 
implement it down to the cities to get that help. But I got 
inundated with calls, and still am, because there is a failure 
of the State working effectively with our cities in terms of 
getting the money to our cities. And as I understand it, part 
of that money was even left on the table because there was a 
deadline put on that money because of the population 
thresholds. Only three governmental units in Georgia were able 
to get that money--Cobb and Fulton Counties, and the City of 
Atlanta--because of that population threshold.
    So, my point is, give us an update on how tragic this is to 
get money down to give to the cities and towns. I represent 48 
cities and towns and we are having difficulty in getting that.
    Can you tell us what we need to do to correct that problem 
and make sure we are getting that money out to our cities and 
municipalities?
    Mr. Anthony. Yes, thank you very much, Congressman Scott, 
for that question.
    The issue was that the dollars, again, went to cities of 
500,000 or more population. And it was very challenging to get 
through the bureaucracy of working to get it down to the people 
from the State, and then to the county, and then to those 
cities.
    And some of these cities in some States, for example, Iowa, 
had no cities that qualified for direct funding. And then there 
are other States that may have had one. South Carolina had one 
city, Columbia, South Carolina. And we had other States, again, 
that may have had two cities.
    But the issue is, these cities, small and medium-sized 
cities, can, in fact, use the Community Development Block Grant 
formula to get direct funding so they can get it out and solve 
some of these issues.
    The rental assistance program had like 40 million people 
right now that are on the brink of eviction. So, I will stop 
there, Congressman.
    Mr. Scott. Yes, thank you very much.
    In my remaining seconds, I want everybody to know, also, 
that we have a food shortage. We have a hunger problem here. As 
chairman of the Agriculture Committee, I want you to know that 
we are going to be in a bit of a fight, because we want to 
raise the Supplemental Nutrition Assistance Program (SNAP) 
allocation to 20 percent, 15 to 20 percent. I feel very 
strongly we are going to need that, and I just hope everybody 
is ready to fight that battle.
    We will be having a hearing on it, on food insecurity in 
about 3 weeks.
    Chairwoman Waters. The gentleman's time has expired.
    Mr. Scott. Thank you, ma'am.
    Chairwoman Waters. You're welcome.
    The gentleman from Michigan, Mr. Huizenga, is now 
recognized for 5 minutes.
    Mr. Huizenga. Thank you, Madam Chairwoman. I appreciate 
that. And I am sorry if I am going back over a little territory 
here with Dr. Strain, but I want to just make sure that we are 
covering this.
    Dr. Strain, what actions do we need to take here that could 
best provide a boost to the economy? Is it direct payments? Is 
it additional unemployment insurance? Is it ultra-low interest 
rates, which we are seeing? What is it that would actually 
provide the biggest boost?
    Mr. Strain. Thank you, Congressman.
    I think the direct payments would be a mistake and an 
imprudent use of government spending. The unemployment benefits 
the President is proposing actually would hold the recovery 
back by keeping people unemployed for longer.
    The $15-an-hour minimum wage would significantly reduce 
employment opportunities. The Congressional Budget Office 
estimates that it would reduce employment by over 1 million 
jobs for low-wage workers.
    The best things that Congress can do in my view are to make 
sure that we can actually get vaccines into people's arms, to 
make sure that we can test people for COVID-19, to make sure 
that households that really are in need, vulnerable households 
that really have suffering, can get the help that they need, 
not households with six-figure incomes who haven't had any 
employment loss, and I think that it would be appropriate for 
Congress to help States and municipalities to the tune of 
around $100 billion.
    Mr. Huizenga. How would you do that for those families, how 
would you determine those families who do need that economic 
help and support, that safety net?
    Because I tend to agree with you, I think there are a 
number of families who are doing just fine, who are going to be 
receiving these payments.
    Mr. Strain. We could use the mechanisms that we already 
have in place to help low-income families. The food stamp 
program is very well-targeted. The Earned Income Tax Credit is 
very well-targeted on low-income households. Making the Child 
Tax Credit fully refundable for 2021, I think, would be 
perfectly appropriate.
    So, the existing programs that we have that target low-
income households, I think, can be utilized in this instance.
    Mr. Huizenga. Okay. You brought up the unemployment 
insurance situation, and Dr. Spriggs from AFL-CIO, the last 
time he appeared here, I brought up the $600 payment, that 
kicker, that Federal kicker that was brought up. He had made 
the claim, 3 claims kind of spaced out, that that was the only 
way that people were able to pay their bills at that time. It 
may or may not be true.
    He then moved on to the fact that, and said that, I believe 
the term he used was this was about racial inequality or 
inequity that had been present in the economic system that we 
were dealing with.
    And then the third thing that he said was that employers, 
and this was the word he used, ``refused'' to keep their 
employees safe in work conditions.
    And so, Dr. Spriggs, I am just curious, do you stand by 
those statements now, a number of months later?
    Mr. Spriggs. I don't stand by your characterization of my 
words, but I stand by my words and I will put them in testimony 
again.
    Mr. Huizenga. I am not sure--
    Mr. Spriggs. It is still the case that because of the 
racial wealth gap, Black and Latino households have no 
liquidity. And in a situation where they lose jobs--
    Mr. Huizenga. Reclaiming my time--
    Mr. Spriggs. --if you give them unemployment insurance--
    Mr. Huizenga. Reclaiming my time--
    Mr. Spriggs. --they will rapidly try and gather up 
precautionary savings--
    Mr. Huizenga. Madam Chairwoman?
    Mr. Spriggs. --and the $600 is still necessary--
    Mr. Huizenga. Can you--
    Mr. Spriggs. --to make up for that inequality.
    Mr. Huizenga. Reclaiming my time, so, do you stand by the 
fact that employers refuse to keep their employees safe in the 
workspace?
    Mr. Spriggs. My statement didn't say that. It said that 
they were not safe.
    Mr. Huizenga. No, you--
    Mr. Spriggs. My statement said that they were not safe and 
the evidence is clear. I provided in my written testimony that 
the disparities that are going on for low-income workers--
    Chairwoman Waters. The time belongs to--
    Mr. Spriggs. --specifically in California--
    Chairwoman Waters. Mr. Spriggs, the time belongs to--
    Mr. Davidson. A point of order, please, Madam Chairwoman?
    Chairwoman Waters. --Mr. Huizenga.
    The time belongs to Mr. Huizenga. Please continue, Mr. 
Huizenga.
    Mr. Hill. Can we put 10 seconds more back on the clock, 
Madam Chairwoman?
    Chairwoman Waters. Yes, we can. We will. No problem.
    Mr. Huizenga. Madam Chairwoman, that was the word that he 
used, ``refused,'' so he may or may not stand by those 
statements.
    But I am curious, if $600 a month wasn't enough, the AFL-
CIO supported the last package, to my understanding, that had 
$300 through the end of March. It is now going to be $400 if 
the Democrats move ahead with the Biden-only plan through the 
end of the year.
    And I am curious, if $600 wasn't enough a couple of months 
ago, how in the world could the AFL-CIO support something that 
is less than that now? It seems to me, that is politics.
    So, Dr. Spriggs, I don't know if you care to respond, but 
now I will give you the time.
    Chairwoman Waters. Thank you.
    The time has expired.
    The gentleman from Texas, Mr. Green, who is also the 
chairman of our Subcommittee on Oversight and Investigations, 
is recognized for 5 minutes.
    Mr. Green. Thank you, Madam Chairwoman. I greatly 
appreciate your opening comments, because I would like to 
associate myself with this issue that assistance is something 
that is of paramount importance. We have circumstances wherein 
persons who are about to be evicted are about to be evicted by 
properties that are owned by mom-and-pop landlords, people who 
don't necessarily have a mortgage, but they need the income to 
sustain themselves. The rent must be paid.
    The best way to deal with these issues associated with 
eviction would be for the rent to be paid. It obviously 
benefits the tenant, because the tenant maintains a home, but 
it also benefits those mom-and-pop landlords who need this 
income to sustain themselves. The rent must be paid.
    The $25 billion that we have proposed that is in this 
package is another down payment. It is a continuation of what 
must be done.
    I don't know what the duration of the pandemic will be, but 
the duration of the suffering is still at the level it was 
previously, notwithstanding our efforts to help, because, as 
has been indicated today, some 40 million may be on the brink 
of eviction. Nobody knows what the real number is; I have heard 
numbers higher, and I have seen some lower. But the point is, 
people are on the edge. They are living on the margins, and we 
must pay the rent.
    Having said this, I do want to concern myself now with the 
$1.4 trillion-plus package or tax cuts in 2017: $1.4 trillion 
went to some of the wealthiest people in this country. There 
were no hues and cries about, we are paying them too much and 
they are getting too much money in their pockets.
    They were not suffering. Their rent was paid. There was no 
pandemic. Their car notes were paid. But they were not persons 
who needed to have some infusion of cash for some specific 
reason. We never heard from people who were complaining about 
this from the other side.
    My dear friends, if there is a moral question about someone 
who is getting a six-figure income and we are talking about 
maybe $150,000 for them, too, where is the moral issue 
associated with putting millions upon millions in the pockets 
of persons who are wealthy, who did not express a need for it?
    In fact, many of them said, don't do this, I don't need the 
money. Many of them did, but we did it, notwithstanding their 
hues and cries.
    So, I just believe that at some point, we have to 
understand that it is not a sin for people in the working class 
to get help, because it wasn't a sin, by some standards, for 
people who are in the upper class to get help.
    So, Mr. Strain, my question to you is this: What was your 
position on the wealthy class, the healthy class, what was your 
position when they were getting these tax breaks in the 
millions?
    Mr. Strain. Thank you, Congressman.
    My position on the 2017 tax law is that the corporate 
provisions, I think, were very good. I have some issues with 
the individual-side provisions. So, I don't think I am--
    Mr. Green. I have been doing some research, and I haven't 
been able to read where you expressed those concerns.
    Do you have a White Paper that you have written that 
expressed those concerns?
    Mr. Strain. I believe that I expressed those concerns a bit 
in commentary and in media interviews, certainly behind-the-
scenes, as well. I don't think I am the forefront--
    Mr. Green. I can appreciate behind-the-scenes, but a lot of 
what we have to do to have an impact has to be open and 
notorious. You are here, openly and notoriously, expressing 
your concerns about the morality associated with working-class 
people getting some help. I didn't see that in my research, 
openly and notoriously, for the wealthy class.
    And with reference to the tax cuts to the corporations, do 
you believe that corporations should have received those tax 
cuts and still keep those tax cuts?
    Mr. Strain. Congressman, I reject your characterization--
    Mr. Green. Seconds left--
    Mr. Strain. I reject your characterization of reducing tax 
rates--
    Mr. Green. My time has expired.
    Mr. Strain. --as giving a handout to anyone.
    Mr. Green. My time has expired.
    Mr. Strain. I also reject your characterization of my views 
and I--
    Chairwoman Waters. The gentleman's time has expired.
    The gentleman from Ohio, Mr. Stivers, is now recognized for 
5 minutes.
    Mr. Stivers. Thank you, Madam Chairwoman. I appreciate you 
holding this hearing.
    The most important issue facing us, Madam Chairwoman, as 
you know, is recovering our economy and moving past COVID-19 
and getting our kids back in schools, getting our businesses 
open, setting the conditions to make that happen, to have 
sustainable growth in the future, and to mitigate the suffering 
in the meantime.
    So, I am curious, Dr. Strain, do you think opening the 
economy is the best long-term solution toward our economic 
growth?
    Mr. Strain. Thank you, Congressman.
    I think there is really no question about that. Once we get 
the virus under control, and once we get people vaccinated, 
there is every reason to believe that the economy will bounce 
back--
    Mr. Stivers. Okay. Thank you, Dr. Strain.
    Mr. Strain. --very strongly. And--
    Mr. Stivers. Thank you.
    I only have a short amount of time, and I would like to ask 
Mr. Anthony, Mr. Johnson, Ms. Murguia, and Mr. Spriggs, do you 
all support vaccinations, one at a time, quickly, yes or no?
    Mr. Anthony. Clarence Anthony, I personally support it and 
I educate people to take it, but it is their decision, 
especially in the Black and--
    Mr. Stivers. I am not asking about mandatory vaccines. I am 
asking if you personally support vaccinations. Thank you.
    Mr. Johnson?
    Mr. Johnson. Yes.
    Mr. Stivers. Thank you.
    Ms. Murguia. Yes.
    Mr. Stivers. Mr. Spriggs?
    Mr. Spriggs. Yes, I do.
    Mr. Stivers. Thank you.
    I want to be clear: I am not for mandatory vaccinations for 
people who have religious or personal problems with it, but I 
want to educate, and I think that vaccinations are the fastest 
way forward. By the way, I did put forward an idea a couple of 
weeks ago, that I have since walked away from, of tying the 
stimulus payments to the vaccinations.
    But I would like to talk to Mr. Johnson about vaccinations. 
I read in a front-page story in the Columbus Dispatch that in 
Ohio, the vaccination rates among minority communities were 
lower than majority communities.
    Is there something we should be doing in this bill to help 
support vaccinations, whether it is a PR campaign; again, I am 
not for mandatory vaccinations, but is there something that we 
could do? Is it a distribution issue? Have you dug into that 
issue, Mr. Johnson, about what is going on? Is that an anomaly 
in Ohio or is that happening around the country? Is there 
something that we need to do?
    Because I believe vaccinations are one of the fastest ways 
to open the economy.
    Mr. Johnson. First of all, that is the reality across the 
country. It is a trend we have seen that African-American 
communities have been disproportionately left out of the 
vaccination opportunities. In this bill, we should prioritize 
those communities who have been hit hardest first to ensure 
that we get those individuals who are critical workers, who are 
providing the support.
    Second, in this bill, there should be a robust 
communications plan investing in African-owned media, and 
Latino-owned media to talk to some targeted communities, and 
then American-owned media to talk to targeted communities to 
ensure the proper education is provided.
    Mr. Stivers. Thank you. I really appreciate that.
    We need a partnership with really trusted organizations 
like the NAACP, Mr. Johnson, as we pursue this.
    I have seen some conspiracy theories on social media about 
Hank Aaron's death that don't appear to be based in fact, and I 
would like to make sure that we address some of those issues, 
too. Because while it is true that Mr. Aaron got the 
vaccination and passed away, I don't believe, and doctors that 
I have seen interviewed have said there seems to be no 
correlation between the vaccination and him later dying.
    So, is that an issue in the minority community, Mr. 
Johnson?
    Mr. Johnson. There are some historical questions that many 
would like answered, but that is the part of education that 
must take place. We stand ready to partner with you or the 
committee or anyone in general to ensure that people are 
educated around their options, which is most crucial, and in 
doing so, we could find ourselves getting out of this pandemic 
much quicker if we target impacted communities.
    Mr. Stivers. Are we doing enough with testing? Are African 
Americans represented enough in the FDA's tests? Is that an 
issue, Mr. Johnson?
    Mr. Johnson. There is a huge disparity in clinical trials 
in terms of the demographics of African Americans and Latinos. 
So, we must increase that, as well.
    Mr. Stivers. I would like to work--
    Chairwoman Waters. The gentleman's time has expired.
    Mr. Stivers. Thank you, Madam Chairwoman.
    Chairwoman Waters. Thank you.
    Mr. Stivers. I am committed to working with everybody on 
those issues. Thank you.
    Chairwoman Waters. The gentleman from Missouri, Mr. 
Cleaver, who is also the Chair of our Subcommittee on Housing, 
Community Development, and Insurance, is now recognized for 5 
minutes.
    Mr. Cleaver. Thank you, Madam Chairwoman.
    Madam Chairwoman, I am so glad to have Mayor Anthony with 
us today. We were mayors back in the day. He started a little 
earlier. He was there at the age of--I think, in his 20s. But I 
would like to talk with him and Ms. Murguia.
    Mayor Anthony, we have a problem in Congress that you can 
recognize, maybe most, which is that the Federal Government 
leans towards Governors, because most of the people who come 
from other divisions, they come from State legislatures, State 
senates, and there are only a few of us who were mayors, and so 
we tend to do dumb things like, the first CARES Act only wanted 
to give direct grants to cities populated over 500,000. We did 
fix that, however, but the other thing it might be important 
for people to remember is that there are 27 States in our union 
that don't have any cities populated over 500,000.
    Mr. Mayor, there seems to be this resistance, particularly 
on the Republican side, of giving money to cities and States in 
our package.
    What would you say to them or what can you say to them 
right now in terms of that need and what happens if they don't 
do it?
    Mr. Anthony. Thank you, Congressman Cleaver, for that 
opportunity to respond.
    What we are seeing, again, is a loss of jobs and loss of 
ability to respond to the COVID-19 pandemic that exists 
specifically in the neighborhoods and the communities of rural, 
small, as well as urban communities. And I think that the 
misnomer here is that we are looking for a bailout.
    What we are saying is if we are going to get back on track 
in America, we must give some support to the level of 
government directly to respond, and to create the jobs, and to 
be able to help the small businesses, and minority-owned 
businesses, help those that have been left behind. So, that is 
the bottom line here. We were overlooked in the last bill, 
because we did not get direct dollars.
    I am just asking that we get a partnership with those 
mayors and councilmembers of towns and villages of all sizes to 
get them the dollars, Congressman.
    Mr. Cleaver. Amen.
    Ms. Murguia, I am not going to mention that you are from 
Kansas City, I am not trying to rub that in to people, but what 
I would like for you to address is that Black and Brown people 
end up being disproportionately on the front lines of holding 
the country together, but we are on the back lines of receiving 
the vaccines.
    But even before that, there has been always this resistance 
about increasing the minimum wage. Has your organization taken 
a position yet on the minimum wage, which we do have in this 
package?
    Ms. Murguia. Thank you, Congressman, for your leadership. 
We absolutely support a $15 increase in the minimum wage. We 
understand that an unfair minimum wage disproportionately 
affects people of color, including Latinos and African-
Americans, many of whom are often concentrated in low-wage 
jobs; for instance, 34 percent of Latinos are earning below 
poverty-level wages.
    And we know, also, that Congress has not raised the Federal 
minimum wage in quite some time. It is currently at $7.25 an 
hour, and has been since 2009. So for us, we absolutely 
understand how increasing that minimum wage can help provide 
needed economic support for these communities who have been 
disproportionately impacted, and not just by the pandemic, as I 
highlighted in my testimony.
    Even in pre-pandemic times, we had seen significant 
challenges in terms of income and equality and those underlying 
conditions that are systemic that have kept our communities 
from being full participants in the economy. So, we absolutely 
believe that minimum wage has to be part of a robust recovery 
and we support it.
    And I will just build quickly, the States and localities, 
part of that ecosystem, as you know, Mr. Mayor, Congressman, is 
the ecosystem of community-based organizations that are key 
links to communities of color for services. And so, Guadalupe 
Center or the Mattie Rhodes Center or El Centro, those are all 
key to providing important services in this particular time, 
and need that funding, as well.
    Chairwoman Waters. The gentleman's time has expired. Thank 
you.
    The gentleman from Kentucky, Mr. Barr, is recognized for 5 
minutes.
    Mr. Barr. Thank you, Madam Chairwoman.
    And for all of the Americans who are watching this hearing 
online or on television, I want to be clear-eyed about what the 
Biden Administration and my Democrat friends are doing this 
week. This week, Democrats are using a budget procedure 
originally designed to cut spending, to pave the way for a 
massive spending spree that, with interest, will add over $2 
trillion to the national debt, despite the immediate 
availability of over $1 trillion in unspent funds from the 
CARES Act, and a $900 billion relief bill passed less than 2 
months ago. That bears repeating: Over $1 trillion in unspent 
funds are immediately available for the American people.
    I would hope that all of us, on a bipartisan basis, would 
focus on actually deploying those funds before we rushed to 
saddle future generations of Americans with an additional $2 
trillion in debt.
    But one thing we absolutely must do is, do no harm. I want 
to explore this minimum wage hike that is included in this 
bill, because at a time when so many workers, and especially 
low-wage workers, the minority workers that Ms. Murguia was 
just talking about, are struggling, one thing we absolutely 
should not do is force those workers to lose their only source 
of income.
    And Congress went to great lengths through the PPP to 
ensure that small businesses could keep their employees on the 
payroll, yet this proposal from President Biden and 
Congressional Democrats to raise the Federal minimum wage to 
$15 per hour, without any adjustments based on regional 
differences and cost-of-living, would compromise those efforts.
    According to the CBO, 1.3 million low-income workers will 
lose their jobs because of this misguided proposal. I want my 
friends, my Democrat friends who support this policy, who are 
well-intentioned, who want to help low-income workers, and I 
share their goal, but I want them to hear what I was told by my 
local restauranteurs, a sector of the economy that has been 
devastated by this pandemic. I have talked to big 
restauranteurs with 1,800 employees across all of their 
restaurants, and then in some cases, a small restauranteur, who 
owns two restaurants in a very low-wage, low cost-of-living 
county, Estill County, in my district, and they said it would 
be ``catastrophic.'' Those two restaurants would close as a 
result of this because of the low cost-of-living. Those 40 
employees would lose their jobs.
    And the large restauranteur in Lexington, Kentucky, told me 
that because of this policy, his business would lose 70 percent 
of their profits and the result would be ``carnage'' for the 
tipped employees in his business.
    So, Dr. Strain, what would be the impact on low-income 
workers, especially those in the distressed restaurant sector, 
with this across-the-board hike in the Federal minimum wage 
that would destroy jobs?
    Mr. Strain. Thank you, Congressman.
    Your characterization is correct. I think CBO's estimate of 
1.3 million is actually on the low side. There are three States 
where the median wage is below $16.50, where half of all 
workers earn less than $16.50. There are two dozen States where 
half of all workers earn less than $18 or $18.50 an hour. And 
in 47 States, over one quarter of workers earn less than $15 an 
hour.
    So, this would be extremely disruptive, particularly in 
low-wage States. But when you think about low-wage States, 
think about approximately half of the States.
    Mr. Barr. Can I just reclaim my time quickly, because I 
know my Democratic colleagues do very much care about, just 
like we do, these low-income workers, but the reality is, in 
the restaurant sector, in this past year, nearly one in every 
five restaurants permanently closed their doors, and over 30 of 
the country's largest retail and restaurant companies have 
filed for bankruptcy.
    Is this the time? Is this really the time to put greater 
stress on those employers in their ability to retain workers?
    I think this is a devastating policy that will destroy jobs 
and kill peoples' ability to stay employed. And with that, my 
time has expired, and I yield back.
    Chairwoman Waters. Thank you, very much.
    The gentleman from Colorado, Mr. Perlmutter, who is also 
the chairman of our Subcommittee on Consumer Protection and 
Financial Institutions, is recognized for 5 minutes.
    Mr. Perlmutter. Thanks, Madam Chairwoman.
    And I have to start by saying to my friend, Mr. Barr, I am 
your ``Democratic'' friend. I am not your ``Democrat'' friend. 
It is the Democratic party. It is not the Democrat party. I 
don't call you my ``publican'' friend or ``banana republican'' 
friend. You are my Republican friend.
    So, please, I am your Democratic friend. It is the 
Democratic party. Thank you.
    Now, many of my questions have been answered and I thank 
the panel, all of you; you have been excellent witnesses. I 
would just like to confirm with you, Dr. Strain, and with you, 
Mr. Anthony, some numbers that you guys testified to, as to the 
need for backfilling, to some degree, State and local 
governments.
    Dr. Strain, in my notes, I have that you said a $100 
billion for State and local governments probably is your 
ballpark number; is that right?
    Mr. Strain. Yes, Congressman. I think that would be 
appropriate to the need.
    Mr. Perlmutter. Okay. And Mr. Anthony, the number that I 
had for you was $350 billion; is that correct?
    Mr. Anthony. That is correct, Congressman.
    Mr. Perlmutter. Okay. Thank you.
    I turn my attention to you, Ms. Murguia, even if you are 
from Kansas City, which is a shame, and to you, Mr. Johnson. In 
Colorado, we noticed an uptick in calls to our housing hotline 
in terms of evictions and mortgage delinquencies. Within the 
Hispanic and Latinx communities, within the African-American 
community, have either of you seen an uptick in concerns about 
delinquencies, either with rentals or in homeownership?
    And I will start with you, Janet Murguia from Kansas City. 
I shouldn't be messing around with Kansas City, but Mr. Cleaver 
always makes me crazy about that.
    Ms. Murguia. Well, go, Kansas City Chiefs, on Sunday, just 
to add another point of emphasis there.
    Look, you are right, Congressman. There is no question that 
our communities are being impacted very seriously by the rental 
and the foreclosures or mortgage challenges. It is one of the 
reasons that in my written testimony, I really went to great 
lengths to talk about the importance of housing counseling 
programs. They can provide that on-the-ground resource where 
folks can call and turn to trusted partners and advisors, and 
we can provide linguistic and culturally competent information.
    And that information is so important right now as they are 
navigating the crisis, the confusing messages about what they 
can and can't do. It is essential that we expand and deepen 
resources for those types of housing assistance programs, in 
addition to funds that will help extend eviction moratoriums 
and also mortgage relief for some of these individuals.
    I found that our network of community-based organizations, 
the UnidosUS Affiliate Network, has been extremely effective 
when we have the resources to be able to engage on the ground, 
because we are seen as trusted partners and we can give them 
that important information. But it is essential that those 
services be funded as part of this recovery.
    Mr. Perlmutter. Thank you.
    And Mr. Johnson?
    Mr. Johnson. I absolutely agree with Janet, and I also 
agree with Congressman Green that there is some immediate need, 
not only for the home renters who actually work every day, but 
for this pandemic, but also for the homeowners who are 
providing access to home rental as a supplemental income 
opportunity. It is absolutely vital to provide support as soon 
as possible.
    Mr. Perlmutter. Thank you.
    And I would just like to say that I tried cross-examining 
Jim Jordan in the Rules Committee on Zoom the other day. It 
didn't work very well. Cross-examining witnesses on Zoom or on 
Webex is hard and everybody should just remember that.
    I yield back.
    Chairwoman Waters. Thank you very much.
    The gentleman from Texas, Mr. Williams, is recognized for 5 
minutes.
    Mr. Williams of Texas. Thank you, Madam Chairwoman.
    In December, Congress passed a bipartisan $900 billion 
COVID relief bill, which brings the 10-month total on 
coronavirus relief to $3.5 trillion. Now, this means we have 
spent more money on COVID relief in less than a year than the 
entire GDP of Germany, France, or India.
    It is not sustainable or realistic to think the Federal 
Government can continue this pace of spending to keep propping 
up the U.S. economy, while States are forcing businesses to 
remain closed. The only way to get out of this pandemic with 
our economy still intact is if we end the lockdowns and put 
people back to work.
    Dr. Strain, I am going to have 3 questions for you. This 
will be the first one. Can you give us some examples of 
policies we can be examining in Congress that would incentivize 
reopening the economy, that would not require, I repeat, not 
require additional Federal spending?
    Mr. Strain. Policies that would not require additional 
Federal spending?
    Congressman, I think there is a need for some additional 
Federal spending, to advance your goal of reopening the 
economy, and to get shots in arms, to distribute the vaccine 
much better than we have seen so far.
    I also think that despite the rollout of the vaccine, a 
more adequate testing regime would go a long way toward 
reopening the economy, as well. So, I think those sorts of 
measures would do what you want, but they would cost some 
money.
    Mr. Williams of Texas. What about liability protection for 
businesses?
    Mr. Strain. Yes, Congressman, I think that is an important 
component. I think you don't want to give businesses blanket 
immunity. You want businesses who are grossly negligent to 
still be liable.
    But businesses are faced with sometimes conflicting 
guidance. They are faced with guidance that is changing 
relatively rapidly. So, I think if you are a business and you 
make a good-faith effort to follow public health guidance, that 
a temporary liability shield from frivolous pandemic-related 
lawsuits would be very appropriate and advisable.
    Mr. Williams of Texas. Thank you.
    Secondly, if my friends on the other side of the aisle are 
intent on passing another COVID-19 relief package, they should 
prioritize reopening the economy, as we've talked about, and 
getting people back to work. But, instead, they are looking to 
include completely, I think, unrelated liberal policy 
priorities such as increasing the minimum wage to $15 an hour. 
We have talked a lot about that.
    And I just got out of another committee hearing with a 
small business where they had 3 witnesses who all said it would 
be a disaster to increase the minimum wage to $15. I am a small 
business owner in Texas, and I have some experience in that. It 
would be a real problem.
    Now, Jim Clyburn said back in March that this virus is a 
tremendous opportunity to restructure things in their vision. 
Now, the Congressional Budget Office, as we have already heard 
today, estimates an increase in the minimum wage to this level 
could cause over a million workers to lose their jobs, and it 
is crazy that a job-killing policy is being considered in the 
middle of a pandemic.
    So, Dr. Strain, can you discuss how increasing the minimum 
wage could affect the rate of the automation in our workforce?
    Mr. Strain. Yes, Congressman.
    I think the CBO estimate of over a million jobs lost is a 
reasonable estimate. I think it is actually too low, given the 
fact that we are talking about an increase during a period of 
labor market weakness.
    I think economic research shows that when the economy is 
weak, that the job loss from a minimum wage increase is higher 
than in normal times. So, I think it really would be a 
significant, significant mistake, that would accrue to the 
detriment of low-wage workers.
    You asked about automation. The plan to phase this in over 
a 4- or 5-year period, I think, on the one hand, blunts the 
impact, but on the other hand, if you are a small business 
owner, you know that you are in for a period of 4 or 5 years 
where every year, your labor costs are going to go up and up. 
So, that really, I think, will encourage businesses, since they 
know they are looking at a sustained problem that is going to 
grow every year, that will encourage businesses to think about 
how they can produce goods and services with fewer workers and 
that will increase the use of automation.
    Mr. Williams of Texas. Thank you very much.
    And Madam Chairwoman, I yield back. Thank you.
    Chairwoman Waters. Thank you very much.
    The gentleman from Illinois, Mr. Foster, is recognized for 
5 minutes.
    Mr. Foster. Thank you. Ten years ago, when we were 
preparing the stimulus bill to revive the economy in response 
to the previous economic collapse that the previous Republican 
Administration had left us with, we were greeted with 
terrifying predictions that the stimulus spending would trigger 
hyperinflation, huge increases in government borrowing costs to 
debase our currency, and on and on. I can't remember how many 
hearings we had on this subject.
    And in the 10 years since those predictions, of course, we 
saw something very different, actually historically low 
inflation and low borrowing costs. And I was wondering, I guess 
starting with Dr. Spriggs, what has been learned in that 10 
years about what is wrong with these predictions that are being 
made in response to stimulus spending during times of economic 
stress?
    Mr. Spriggs. We learned from the Great Recession that we 
gave too little, and that was an error, and we are trying not 
to repeat that. Where we stand right now is where we were at 
the depth of the Great Recession. Congress already responded in 
March with a very substantial package, to recover from what was 
even worse than where we are now.
    But it slowed down. In December, we lost jobs. And one of 
the things that we know was weak from the recovery during the 
Great Recession was that we didn't pay attention to State and 
local government. We lost jobs in the State and local 
government sector, we left that sector weaker, and we don't 
want to repeat that going into this recovery, and we need those 
workers so we can go door to door, and we can call people. The 
idea that we are going to use computers and people getting 
online and setting up appointments is not going to reach the 
communities that we need to reach. It is not going to reach 
rural communities that don't have internet. It is not going to 
reach small cities where internet isn't that strong. We need 
local government to have the people in place to really reach 
the people, and to make sure that going forward, we have a more 
robust recovery.
    Mr. Foster. In the 10 years that we have had to study the 
response to the last stimulus--it contained a variety of 
different measures, and if I recall properly, roughly 40 
percent of that stimulus was tax cuts, some of which actually 
went to very wealthy people and some to the working class.
    What have we learned about the benefits of things like tax 
cuts for the wealthy, compared to assistance to working-class 
families, in terms of the bang for the buck, in generating GDP 
in response to a crisis, which is more effective?
    Mr. Spriggs. We had a much bigger fiscal multiplier by 
helping those with lower incomes, and one of the problems from 
the recovery during the Great Recession was that we didn't get 
wages to rise. Wage growth was very slow, until State and local 
governments stepped in and marched us towards $15 an hour. So, 
we have to understand that the call to raise the Federal 
minimum wage to $15 an hour is not the whole country, because 
the whole country is on an uneven path, and those States that 
aren't on that path disproportionately have Black workers. 
There is a racial equity issue here because Black workers have 
not seen their wages respond as quickly since the Great 
Recession, and it is in large part because we ensured stronger, 
safer economies by doing that.
    We have studied, as economists, raises in the minimum wage. 
All of these claims of job losses in restaurants is not what we 
find in the evidence. The claims by the CBO have to do with 
workers who maybe work two jobs, and are asked to deal with 
substitution within the household, where maybe the wife decides 
she doesn't need to work if the wages are higher. So, it is not 
that we mean fewer jobs. It is that some workers may be able to 
cut back on their hours.
    Mr. Foster. Thank you, and I understand there is another 
large effect that if you provide economic benefits to those at 
the top of the economic scale, instead of spending in the local 
economy, they are much more likely to basically turn it over to 
their investment advisors who will advise them to diversify, 
and roughly one-third of that money will be invested offshore, 
which I think is another new argument about the benefits, of 
targeting the benefits at the working families who need it the 
most.
    I am done here, and I yield back.
    Chairwoman Waters. Thank you. The gentleman from Georgia, 
Mr. Loudermilk, is recognized for 5 minutes.
    Mr. Loudermilk. Thank you, Madam Chairwoman. I am surprised 
that my colleagues on the other side of the aisle have all of a 
sudden felt the need to rush through this partisan COVID relief 
package, when the Speaker actually held up the last one for 
over 6 months. We all know that was done purely for political 
reasons, to hurt the other President politically in his 
campaign. But now, all of a sudden, this is an emergency that 
we have to get it out.
    There is over $1 trillion of the last several packages 
still unspent. Senate Democratic leader Chuck Schumer recently 
said it makes no sense to pinch pennies when so many Americans 
are struggling. I would argue that it makes no sense to spend 
another $2 trillion when there is still more than $1 trillion 
of unspent funds from the other packages.
    The CBO projects that the December package will grow the 
economy 1.5 percent faster in 2021 and 2022, and less than 20 
percent of it has been spent. We should let that package work 
and see what else is needed before rushing to pass a colossal 
waste of $2 trillion. I appreciate that President Biden and 
other Democrats have called for unity and have spoken of the 
need for job growth, but actions speak louder than words. They 
are pushing a hyperpartisan package, and quite frankly, we 
voted yesterday on a budget, and the Budget Committee has not 
even been organized yet. There has been no input from 
Republicans. There is no bipartisan agreement here. This is 
being ramrodded through and it is a package that could destroy, 
and I believe will destroy, millions of American jobs.
    Here is my question. Mr. Strain, there is an old saying 
that you don't raise taxes during a recession. I would argue 
that you don't raise the minimum wage during a recession 
either. CBO estimates that a $15 minimum wage would destroy 1.3 
million jobs. It would disproportionately increase employment 
for part-time workers and those without a high school diploma 
and raise the cost for small businesses, and the small 
businesses are the ones that have been hurting the most because 
of the government shutdowns. Those are the people we should be 
helping. It is unconscionable that Congress would pass a policy 
to destroy so many jobs when we are trying to recover the 
economy.
    So, Mr. Strain, can you explain why now is not the time to 
raise the minimum wage?
    Mr. Strain. Thank you, Congressman. I agree with that. I 
think there are several reasons why raising the minimum wage in 
a period of labor market weakness leads to a larger amount of 
employment loss. Businesses are just more willing to make those 
kinds of changes to the way they produce goods and services 
when the economy is weak, and when the economy is weak, of 
course, there is less demand for businesses, products, and 
services to begin with, which also makes them more inclined to 
change the structure of their labor forces.
    I think it is actually maybe even a little bit worse than 
you characterized, Congressman, because the same CBO report 
that found 1.3 million job losses also found that a $15 -an-
hour minimum wage would slow economic growth. And so, I just 
think that there are many reasons why you don't want to raise 
the minimum wage to $15 an hour, and raising the minimum wage 
to $15 an hour during a period of elevated unemployment is 
adding insult to injury, I think.
    Mr. Loudermilk. Thank you. I agree with you there, and 
there is another provision in here that gives me grave concern. 
Back in August of last year, I was visiting with several of our 
local governments, and one of the county commissioners came to 
me and said, ``Look, please do something for us. Will you stop 
the unemployment subsidies? We don't want any handouts from 
Washington. We want you to stop the subsidy because we can't 
get our county employees to come back to work because they are 
making more money being on unemployment than they were being 
paid at their jobs,'' which, according to the economy in 
northwest Georgia, they were making good money there. Four 
hundred dollars is keeping people out of work and it is hurting 
our economy.
    Do you agree with me that extending this $400 subsidy for 
nearly 2 years is going to be devastating to especially the 
small businesses?
    Mr. Strain. Yes, Congressman. I think extending the $400 
through September, which is what President Biden is proposing, 
would be an act of economic self-harm. When Congress passed the 
$600 Federal supplement in March, that was during a period of 
time where the country was locked down, and you really did not 
want unemployed workers out there trying to find a job because 
you didn't want them spreading the coronavirus. That is not the 
situation we are going to be in for September. You are going to 
have unemployed workers sitting at home and not getting jobs, 
when there is no reason for that.
    Mr. Loudermilk. Thank you. I yield back.
    Chairwoman Waters. The gentleman's time has expired. The 
gentlewoman from Ohio, Mrs. Beatty, who is also the Chair of 
our Subcommittee on Diversity and Inclusion, is now recognized 
for 5 minutes.
    Mrs. Beatty. Thank you so much, Madam Chairwoman, and thank 
you to the committee, and thank you to all of the witnesses. It 
is an honor for me to be here today. Certainly, as we have 
heard, and research and the people's comments have supported, 
individuals need relief. Small businesses need relief. We know 
that when we look at the 440-some thousand individuals dying 
from COVID-19, that it is a three-headed pandemic. It is health 
care, it is the economic issues that we are dealing with, and 
it is the social injustices.
    So when it comes to this committee, I want to thank the 
Congresswoman for speaking up for all of the people and what we 
know to be true. We know that people need more financial 
assistance. We know that individuals need relief. We are 
hopeful that we will get through this COVID-19 because of 
science and medicine. But we know we are not there.
    We know cities and communities across this country are 
saying, ``Give us relief. Continue the individual 
unemployment.'' I think it is unthinkable for anyone to believe 
that someone would not go to work because they are getting an 
additional $200, $300, or even $600. It comes back to the 
economy. Economists have told us that. Wall Street has said to 
us, when you look at the stock market and what happens when 
individuals get more dollars, what do they do? They buy food. 
What do they do? They try to keep a roof over their heads.
    I want to thank all of the witnesses, but I want to give a 
special thank-you to Mr. Johnson, head of the NAACP, because 
last week he brought up former Ambassador Susan Rice to talk 
about domestic policy leadership and the issues and racial 
justice inequity. He had soon-to-be HUD Secretary Marcia Fudge. 
Housing is a big part of what we do under Chairwoman Maxine 
Waters' committee. He had me come on to talk about financial 
services. And I want to thank you, because when the people 
called in, it was Black people, White people, Democrats, and 
Republicans, because death and hurting is not a partisan issue.
    So, Mr. Johnson, can you help us? When we know that it 
comes to people who are affected most by COVID-19, whether it 
be medically or economically, African Americans have borne the 
brunt of this pandemic, so is there anything, as head of the 
NAACP, that you want to elaborate on, that we still need to do 
in Congress to ensure that all communities who have suffered 
are made whole?
    Mr. Johnson. Thank you, Chairwoman Beatty. Three quick 
things. First, is a targeted approach to ensure that 
communities who are most at risk receive the vaccine 
immediately. Second, I have never heard that giving people in 
need of money, more money, will hurt people in need of money. 
That is a concept I am not familiar with. We need to ensure 
that we stabilize our economy. It fuels more resources in 
people's hands, not corporations, but those people who use 
those funds to support the very small businesses that many of 
them work for, like the Henry Ford Model. He paid his workers 
more because he wanted to sell more cars.
    And then third, I always go back to the looming student 
debt crisis. We depend on our governmental workers, local and 
State, teachers, and they are suffocating under the burden of 
student loan debt in the midst of a pandemic, in the midst of 
an economic crisis. We must give those individuals relief, and 
if we do so that can stimulate the economy, because the $300 to 
$500 that they are paying in monthly student loans will go 
right back into the economy.
    Mrs. Beatty. Thank you. Dr. Spriggs, can you tell us a 
little bit about the economy and the consequences of not 
providing more rental assistance dollars?
    Mr. Spriggs. Thank you, Congresswoman. We are risking too 
much going in the economy because all workers in America make 
too little money. The size of this package is evidence to us 
how little we have put in the hands of our workers, keeping 
them from being individually resilient in the face of crises. 
Letting them become homeless complicates this situation. If you 
are a long-term unemployed worker, it is very hard to reconnect 
you to the labor force. Letting you become homeless is 
virtually impossible. That is too steep a challenge for us to 
face. It is penny wise and pound foolish for us not to make the 
investment now to prevent the scarring of homelessness--
    Chairwoman Waters. The gentlewoman's time has expired. 
Thank you.
    Mrs. Beatty. Thank you.
    Chairwoman Waters. The gentleman from Ohio, Mr. Davidson, 
is now recognized for 5 minutes.
    Mr. Davidson. Thank you, Madam Chairwoman. And I thank our 
witnesses. This is certainly a timely hearing and one that 
deserves a lot of attention. Frankly, over the past year, 
nearly $5 trillion has been voted on here in this body to add 
to the monetary supply of the United States of America.
    One of the agenda items is that the Fed's dual mandate 
should be updated to address economic inequality. The proposals 
behind that, from the Majority, focus on more redistribution. 
They want the Fed to take money that we cannot even print fast 
enough and redistribute it. They want the Fed to make loans 
that the market would never actually make. And they want the 
American taxpayer to underwrite risks that no one rationally 
would take.
    The Federal Reserve is adding to this inequality massively, 
because what they are doing isn't driving a huge amount of 
consumer price inflation. It isn't driving that kind of 
inflation because that money does not make it to the average 
American worker. That money makes it to people who are wealthy, 
people who have a large portion of their net worth tied up in 
marketable securities. And that is why right now, in the midst 
of this pandemic, where much of Main Street is decimated, Wall 
Street is having its best days ever. You are seeing the S&P 500 
hit record highs with no correlation to the activity on Main 
Street. Lots of hope for the future, but we had lots of hope 
for the future at this time last year, and we weren't yet 
reacting to the COVID-19 pandemic.
    When those asset prices become inflated, the wealth gap 
grows. The wealthy benefit from this right now. Jeff Bezos 
doesn't even pay the capital gains tax on his shares. He simply 
borrows against their value, which is rational in our current 
Tax Code.
    But while the worker, the American worker back home in Ohio 
is busy working his hourly job, or hoping to be able to get 
back to it because it has been crippled not entirely by the 
virus but by the government's reaction to it, is happy that his 
401(k) or his IRA has gone up, but that is for future earnings. 
That is not for money that can be spent today. That is hope for 
someday. But meanwhile, the value of those dollars being 
deposited in his paycheck are destroying--destroying--our 
economy.
    When I first got to Congress, I wasn't sure that people 
were aware that this destruction was taking place. But the sad 
thing is that they are, and they want to misdirect and blame 
things like the Tax Code or employers or things like that. And 
I don't want to say there is no fault anywhere, but the biggest 
pump-and-dump scheme going on in America right now is being 
driven by the Federal Reserve. We need to get back to sound 
money and have a sound, rational basis for our monetary policy.
    These economic distortions are crippling not just America's 
economy but the global economy. Developed economies around the 
world are talking about going to real negative nominal rates. 
The real rate for interest right now is already negative. No 
one really believes that the rate of inflation over the next 10 
years is going to be less than 1 percent. But that is what 
happens when you wire Treasuries. It is central planning. It is 
distorting pricing.
    And that is not an attack against the whole concept of 
central banks. Our central bank has been effective. In March, 
and in April, in particular, it is a case study in why central 
banks should exist. They provided essential stability to make 
our markets function. It was incredible. A number of programs 
implemented swiftly and decisively when there was literally no 
buy side for, for example, the safest assets, municipal bonds. 
Super safe assets. A market only functions when there is 
equilibrium between buyers and sellers, and when there is no 
buy side, the market is in freefall. So I commend the Federal 
Reserve for that, but since that time we have seen massive 
economic distortion, and it not going to end well.
    Look, billionaires will lose billions of dollars. They may 
even lose a higher percentage of their net worth. But the 
working men and women of America are harmed by this economic 
distortion. We have to get back to sound money. Now, the idea 
to print even more of this money that we don't have, robs from 
future consumption. Dr. Strain, you have spoken well of this 
economic distortion. I want to give you a chance to talk about 
the consequence of spending future earnings of the American 
people. What kinds of consequences might we expect from this 
economic distortion?
    Mr. Strain. Thank you, Congressman. I think it is 
appropriate for Congress to spend money to support households 
and businesses and to fight the virus, and I think that the 
CARES Act really did a great deal of good for American 
businesses and households.
    Mr. Davidson. Thank you for that, and I would agree with 
you that it did a very good--
    Chairwoman Waters. The gentleman's time has expired.
    Mr. Davidson. --job in the essential moments, as I 
highlighted. So, I appreciate that final comment, and I yield 
back.
    Chairwoman Waters. Thank you. The gentleman's time has 
expired. The gentleman from California, Mr. Vargas, is 
recognized for 5 minutes.
    Mr. Vargas. Thank you very much, Madam Chairwoman, and I 
also want to thank the Republican Ranking Member today for this 
hearing. I do think it is very timely, and I first want to say 
that I do agree with some of the things that were said by my 
good friends from Ohio, certainly Representative Stivers. I 
think it is very important that we get the vaccine out in as 
many arms as we can. And I do think that my good friend, Mr. 
Davidson, what he just said, there is that distortion where you 
have now the wealthy getting wealthier and wealthier and the 
poor and the working class falling behind, that is something 
that is real and we have to work on it.
    However, at the same time, I have to say I listened to most 
of my other colleagues on the other side and it seems that they 
want to figure out how to give the working class and the poor 
as little possible help as they possibly can, and the wealthy 
as much as they possibly can through tax cuts. It was 
interesting to hear a scold today tell us about how we are 
going to add trillions of dollars through this potential 
process, when that same person, a few years ago, voted in favor 
to adding trillions of dollars to the long-term debt by doing 
the tax cuts for the wealthy, that even Dr. Strain said he had 
problem with, at least with the individuals, not with the 
corporations. I do not want to put words in his mouth.
    That, to me, is crazy. That is as looney as I think this 
QAnon stuff, that we make the wealthier wealthy and the poor 
and the middle class, we give them as little help as possible. 
That doesn't make any sense to me at all. It doesn't make any 
sense. That is not why government exists and that is not what 
we should be doing.
    I do want to ask a couple of questions here before I become 
the scold in the rank here. Ms. Murguia, you were talking about 
the losses suffered by Latinos, and they are very painful in my 
district, of course, which is predominantly Latino. You talked 
about how they are 3 times as likely to die because of COVID-
19, and twice as likely to get sick, and the losses that we 
have suffered. And then you have talked about some of the 
things that we can do. What else can we do? You mentioned some, 
but what else?
    Ms. Murguia. Thank you, Congressman. I appreciate your 
comments. And I think I would just say, in addition to what you 
have laid out, in terms of making sure we are concentrating on 
targeted relief to those who have been the essential workers, 
and what we have found is that the Federal relief so far has 
not included those essential workers. And as you know, 
Congressman--you have worked a lot on behalf of Dreamers and 
many who have been undocumented, who are yet filling the lines 
of folks who are helping our country right now, whether it is 
in the fields as farm workers, whether it is in meat processing 
plants, whether it is stocking shelves or actually delivering 
food, or whether it is providing care to all of these folks who 
are in need of health professionals. But yet, we have found 
that Federal relief, because of these families being mixed 
status, the relief has not gone there. But they have provided 
the work, the services to keep things going.
    So we have argued, as you have heard, that we should make 
sure that all essential workers, regardless of their status, 
many who are families who have U.S. citizen children, should be 
included, and that we should take the step to look at, perhaps 
in a reconciliation bill, maybe addressing, first and foremost, 
how we can provide protected status for these folks. Because 
they are going to continue to keep the economy going from this 
particular moment and into the future.
    Mr. Vargas. Thank you very much. I appreciate that.
    I also want to ask Mr. Anthony, I was on the San Diego City 
Council for a number of years when I started my political 
career, and the City and a lot of the little cities that I have 
in my district are really suffering at this moment. They are 
working hard but they are suffering. How can we help them, 
through this package? You have talked a little bit about that, 
but could you expand on that? Because I know that they work 
hard. At the same time, they are in desperate need.
    Mr. Anthony. Yes. Thank you, Congressman, for asking that 
question. I think the way in which we could be of help to those 
small and especially the rural communities is to be able to get 
those dollars in the hands of those local leaders who can 
actually create those programs such as the food programs. Also 
to be able to help them keep their employees so that we can get 
our economy started back up through permitting, housing, and 
capital investments. Again, this is not a bailout. This is 
being able to help them administer the programs that you, in 
fact, are approving through the past stimulus projects as well. 
Thank you, Congressman.
    Chairwoman Waters. The gentleman's time has expired.
    Mr. Vargas. Thank you.
    Chairwoman Waters. The gentleman from North Carolina, Mr. 
Budd, is recognized for 5 minutes.
    Mr. Budd. Thank you, Madam Chairwoman. I just want to 
confirm, Dr. Strain, can you hear me okay?
    Mr. Strain. Yes, sir.
    Mr. Budd. Thank you. I appreciate you being here today. 
Over the past 11 months, Congress has appropriated nearly $3.5 
trillion to stimulate the economy and support families, 
workers, and small businesses. Today, we are discussing the 
newest plan proposed by President Biden which is seeking to add 
$1.9 trillion in untargeted relief. I am supportive of the 
widespread testing, I am supportive of vaccinations, and I 
believe that these are both critical components to opening 
safely. But I also strongly believe that additional funding, if 
necessary, should be targeted to meet those needs. Keep in mind 
that a majority of the funds we appropriated in the December 
COVID package has remained untapped.
    So my question is this: How will the new untargeted 
spending provide greater benefit to our economy that the 
already appropriated $3.5 trillion hasn't, and is this even 
necessary?
    Mr. Strain. Thank you, Congressman. I think much of it is 
unnecessary and a good chunk of it is actually actively 
harmful. The checks to households, a whole lot of that money is 
going to go into savings. That is not going to help support the 
recovery. The reason it is going to go into savings is because 
so much of it would go to households earning well above median 
income, earning six figures a year, who haven't suffered any 
employment losses.
    The unemployment insurance supplement of $400 a week 
through September, I think will be actively harmful. On the one 
hand, it will support consumer spending. On the other hand, it 
is going to act to keep people unemployed for longer, at a time 
when most likely the vaccines are in wide distribution and we 
want people to be getting back to work. The $15-an-hour minimum 
wage will be actively harmful to helping low-wage workers keep 
jobs, get back to work, and get back on their feet.
    So I think you are right, Congressman, that we should be 
looking at the actual needs here, and I think it is appropriate 
for Congress to spend some more money this month on addressing 
those needs. But large portions of the President's proposal 
wouldn't do much good, and large portions of the President's 
proposal would actually do harm.
    Mr. Budd. Thank you. I also want to ask, we have seen the 
devastating impacts that widespread lockdowns have had on our 
economy. Just last month, the Labor Department reported that 
our economy lost 140,000 jobs, and we are used to, over the 
last several years, adding jobs by the hundreds of thousands, 
but now we have lost 140,000 jobs, the bulk of which came from 
States that have endured long-lasting and broad lockdowns. 
States with less restrictions are rebounding at a rapid pace.
    So, Dr. Strain, do you believe that the most effective way 
to support the economy is to safely open it up?
    Mr. Strain. Yes, Congressman. I don't think there is really 
any doubt that in order to fully recover from the pandemic, we 
need the economy to be reopened. And the best way to get the 
economy reopened is to get vaccine shots in people's arms. I 
think that the inability to do that quickly, the fact that 
vaccines have been sitting in storerooms and not being 
administered is a national scandal, and I think it is very 
appropriate for Congress to figure out what it can do to help 
get people vaccinated. Because the faster we do that, the 
faster we can reopen and the faster we can recover.
    Mr. Budd. Thank you. And lastly, Dr. Strain, would you 
detail the benefits of using private lending institutions to 
operate an emergency loan program instead of creating a 
government-run program?
    Mr. Strain. One benefit is just speed. And that was a key 
reason to rely on private sector lending institutions for the 
PPP program, that you wanted to get money to businesses 
quickly, and that creating a new government agency to do that 
really would have slowed it down.
    Another reason, of course, is that the situation we are in 
now is temporary, and we should not be kind of changing the 
structure of government to support a temporary problem.
    Mr. Budd. Very good. I appreciate your time, Dr. Strain, 
and, Madam Chairwoman, I yield back.
    Chairwoman Waters. Thank you very much. The gentleman from 
Florida, Mr. Lawson, is recognized for 5 minutes.
    Mr. Lawson. Thank you, Madam Chairwoman, and I would like 
to thank the witnesses for being here today. I had an 
opportunity to listen to many of the panelists, whom I think 
have done a great job. And I am going to talk a little bit from 
the small business standpoint, because I have been in small 
business for the last 34 years. One of the things that, Mr. 
Strain, you said, is that enhancing the minimum wage is going 
to really, really hurt small businesses. I wonder if you could 
elaborate a little bit more on that and tell me why you think 
it is really going to hurt them? Oftentimes, we can draw good 
employees if we pay them well, which increases our bottom line 
and helps us to do better economically, and we might even have 
the opportunity, if we get more resources, to hire other 
people.
    So, maybe you can elaborate on that a little bit more for 
me, please?
    Mr. Strain. Yes. Thank you, Congressman. I think the 
example that you gave is an example of something that does 
happen. When a State or when the Federal Government increases 
the minimum wage, you often see businesses hire a different 
type of worker. Perhaps, a business was employing workers who 
hadn't graduated high school when the minimum wage was $6 or 
$6.50. Then, the minimum wage goes up to $7, $8, and they start 
to hire workers who have graduated from high school. So in that 
instance, the business itself that is doing that is not 
necessarily worse off. They are hiring workers who are going to 
be more productive and they are able to absorb the minimum wage 
that way.
    But the person who loses out is the person who didn't 
graduate high school, and my concern is that even in situations 
where businesses will be okay--and to be clear, when you are 
talking about doubling the minimum wage, I think many, many 
businesses are going to really struggle. But even those 
businesses that don't struggle because they find other ways to 
adapt, that doesn't change the fact that the least skilled, 
least experienced, most vulnerable workers in society are going 
to pay an enormous cost for the minimum wage increase up to 
$15. Middle-class households are going to see their incomes go 
up, but the cost of the policy is going to be borne by the 
least skilled, least experienced, most vulnerable workers in 
society, and that is just not a tradeoff that I think Congress 
should make.
    Mr. Lawson. Okay. Thank you.
    Mr. Johnson, I heard you earlier give quite a few analyses 
about where we stand, especially with people of color. And I 
know how important it is to get the vaccine out there because I 
know it is critically important. I represent a lot of rural 
areas. How do we get dollars down, because there has been some 
consideration this morning about dollars are not really coming 
down. Dollars are going to the wrong people who don't really 
need it, but in my district, everybody I come in contact with 
seems to really need the stimulus dollars to benefit their 
families. How do we do that in legislation to make sure that 
the dollars that are needed the most by individuals are 
stimulating the economy?
    Mr. Johnson. Was that question for me?
    Mr. Lawson. Yes, sir.
    Mr. Johnson. Putting money in people's hands becomes 
crucial. That is why we supported the $2,000 stimulus check 
that was first stated by the prior President, that many people 
now oppose. But we also understand, in terms of the vaccine, 
you have to provide access to vaccination closer to where 
people live, and if you only provide it through the medical 
facilities, you can miss whole communities. Municipalities play 
a huge role. Public housing systems play a huge role.
    But then, more importantly, to your earlier question about 
minimum wage, I have never been able to reconcile this concept 
of a free market economy, but we don't want a free market 
economy when it comes time to pay people an equitable wage 
because people go out of business. We have to pay people their 
value, and if we look at what the growth is in terms of the 
cost of living, and we are not keeping up the cost of living, 
we must supplement or create a space where people can actually 
work hard every day and make a living. Every community I have 
driven through that appears to be impoverished, I could assure 
you those are low-wage workers. We need to raise the floor for 
the quality of life.
    Chairwoman Waters. Thank you very much. The gentleman's 
time has expired. The gentleman from Tennessee, Mr. Kustoff, is 
recognized for 5 minutes.
    Mr. Kustoff. Thank you, Madam Chairwoman. Thank you for 
convening today's hearing, and thank you to all of the 
witnesses who have appeared today.
    Dr. Strain, if I could talk with you first, you talked in 
your testimony in response to other questions about the 
enhanced set of employment benefits that we approved in the 
CARES Act, and that we renewed, to a lesser level, back in 
December. I will tell you that in my district, I have heard 
from ``X'' number of employers who told me that they literally 
could not get employees to come back to work when they were 
receiving those unemployment benefits because they were 
literally making more money with these enhanced unemployment 
benefits than they were pre-pandemic.
    And I will say, with the passage of the CARES Act that we 
passed in March, I think we did a lot of things right, as a 
Congress, and we did it on a strong bipartisan basis. But my 
recollection is that when Secretary Mnuchin, who was 
essentially the lead negotiator for the Trump Administration, 
talked about the $600 enhanced unemployment benefit, he 
essentially said that was a median number.
    So my question to you is a little bit wonky, and that is, 
if we do approve additional enhanced unemployment benefits, is 
there a way to make that locality-based, based on cost of 
living for an area? I represent Tennessee, so in my area--
Arkansas, Mississippi--the cost of living is lower than in 
California, New York, and New Jersey. Is there a way for us to 
do that, as a Congress, and with the Biden Administration?
    Mr. Strain. Congressman, it is a really good question. I 
think we saw in the ability of State Governments to administer 
unemployment benefits, the inability to handle even the $600 
increase, suggests that their capacity to do something 
complicated like that is unfortunately limited. I think you are 
right to be thinking about ways to mitigate the damage that 
those unemployment benefits could do.
    I think a similar solution is just to do them at a much 
lower level than $400, or not do them at all, and to make sure 
that they stay in effect for a relatively short period of time, 
certainly not until September.
    When Congress appropriated the $600 as part of the CARES 
Act in March, that was an extremely unusual circumstance. The 
idea behind the $600, as you said, was to replace completely 
the income that unemployed workers would lose when they lost 
their job. The reason why that was reasonable to do was because 
you did not want unemployed workers trying to find another job, 
and the reason you didn't want them trying to find another job 
was because if they were trying to find another job, they would 
be spreading the virus. This was in March and April when we did 
the lockdown. Keep everybody at home. Don't go to work unless 
you absolutely have to. Certainly, don't be trying to find a 
new job.
    That is just not the situation we are in anymore. If we 
thought the $600 would keep workers from trying to find a job 
in March and April, certainly it is going to keep them from 
trying to find a job in July, August, and September, when the 
vaccine is going to be in wide distribution. So, I really think 
that this is a damaging proposal.
    Mr. Kustoff. Thank you very much, Dr. Strain.
    Mr. Anthony, if there is another stimulus bill that, in 
fact, appropriates money, replaced money for cities, as you 
talked about in your testimony, first of all, if you were 
writing the bill, would you write in a population threshold for 
a city or municipality? And if the answer is yes, what is that 
number?
    Mr. Anthony. Thank you, Congressman. That has been a 
question that many have asked. I think that our perspective as 
the National League of Cities is that every mayor, no matter 
the size of their community, has been elected to lead and to 
make decisions on behalf of that community. And if I then had 
to make a formula decision, I would use the Community 
Development Block Grant formula, that gets it down to $50,000, 
and would require that if money is sent to the State for those 
smaller cities, that it be transferred immediately, within 30 
days of receipt of those dollars, down to those communities.
    Mr. Kustoff. Thank you. My time has expired.
    Chairwoman Waters. Thank you very much. The gentleman from 
Guam, Mr. San Nicholas, who is also the Vice Chair of this 
committee, is recognized for 5 minutes.
    Mr. San Nicholas. Thank you so much, Madam Chairwoman, and 
thank you for convening this very important hearing. I think it 
is doing a huge service to the American people by allowing them 
to really vet the conversations that we are having and to 
address what is on the table and also how to speak towards 
misnomers that are circulating regarding what is happening 
next. I would like to thank our witnesses on the panel for 
making time to be with us today.
    Madam Chairwoman, I want to address some of these 
misperceptions. That way, the American people can have clarity. 
First, there is a misperception out there that there is $1 
trillion kind of just sitting out there, that we have already 
approved, that is not being spent, and it is creating the 
perception that we have money out there that has been made 
available that is somehow just not being used.
    Mr. Anthony, based on your experience, is it true that $1 
trillion in relief is languishing and wasting away or is it 
largely programmed by our States, our cities, and our local 
governments?
    Mr. Anthony. Yes, Congressman. I think that we know, again, 
we were not prepared for a pandemic. No one was. And so if 
those dollars have gotten to State and local governments, there 
had to be an infrastructure created and a plan. And what we are 
seeing is that the States, as well as the mayors and counties, 
have those programs, and now those dollars are going to be 
spent.
    And we also must recognize there is a lagging economy that 
is happening. We haven't even seen the worst of what is going 
to happen. So, thank you, Congressman.
    Mr. San Nicholas. Thank you. Yes, and we are having the 
same experience in my district. The money is not languishing 
out there. It is being programmed. It has a purpose, and the 
purpose is to fulfill the intent of the Congress to make sure 
that we are addressing the COVID-19 circumstances and the 
relief that needs to go out to our communities.
    Mr. Anthony. That is correct.
    Mr. San Nicholas. I am looking forward to our local 
governments deploying those resources expeditiously, but the 
funds that we made available is not somehow money that can all 
of a sudden be reprogrammed. It has already been programmed.
    Second, there is a misnomer out there that was reiterated 
by, I am not sure if it was Dr. Strain, but it is the idea that 
the Federal Pandemic Unemployment Compensation (FPUC) was 
somehow provided to prevent people from going back to work. We 
are talking about the additional supplemental $600, $300, now 
$400. That is absolutely incorrect. The purpose of that 
resource was because we have millions of Americans who are now 
relying on unemployment, and the unemployment compensation 
provided by their unemployment insurance in their State, and in 
my district, is insufficient to meet the cash flow strains that 
they are suffering from because they are no longer able to 
work. That supplement is being used to make up the difference 
between what they are receiving in unemployment insurance and 
what they were actually earning.
    And to be perfectly honest, that difference is still very 
insufficient: $600 was insufficient; $400 was insufficient; and 
$300 is insufficient. And the fact that we are at least 
providing something is keeping families from going from being 
able to provide, what they are doing for their communities and 
bringing money into their households, to now at least having 
unemployment, whatever paltry sum that is they are receiving in 
their respective districts, plus the supplement that is going 
out to support them.
    The idea also that we have to engage in a protracted 
deficit at this time has me very concerned. We entertained an 
amendment just the other day that would have locked up the 
ability of this committee to be able to provide any relief 
whatsoever if we did not find a budgetary offset. Now, of 
course, we should always be mindful of the deficit, but I am 
going to ask a very elementary question to Dr. Spriggs, and 
forgive me for the elementary nature of it. But is the time for 
us to be addressing Federal spending during the pandemic we are 
enduring now, or should it be during times of economic 
stability?
    Dr. Spriggs?
    Mr. Spriggs. Thank you, Congressman, for that question. It 
should be in times that are normal. We are actually in a war. 
The virus has killed more Americans than we lost to combat in 
World War II. This is not the time to be looking at a budget. 
Now is the time to be looking at, are we successfully winning 
our war against this virus? That has to be the number-one 
priority. That is what is killing our economy. We cannot heal 
the economy until we heal the virus.
    Mr. San Nicholas. Thank you, Dr. Spriggs. Madam Chairwoman, 
thank you so much, again, for convening this hearing, and 
again, thank you to our witnesses for making time for us today. 
I yield back.
    Chairwoman Waters. The gentleman from Missouri, Mr. 
Luetkemeyer, is recognized for 5 minutes.
    Mr. Luetkemeyer. Thank you, Madam Chairwoman, and I thank 
our witnesses for being here this morning. I certainly 
appreciate their willingness to be here and inform us.
    But I would like to take a moment, before I begin my 
testimony, my questioning, to point out that the testimony for 
this hearing was not posted until last night, Madam Chairwoman. 
If the Majority wants to have a serious discussion regarding 
the needs of American consumers and businesses during this 
pandemic, and what Congress should do to enhance economic 
recovery, giving Members less than 12 hours overnight to review 
and prepare for this hearing is unacceptable. If this was any 
indication for how the Majority intends to operate the 117th 
Congress, I have serious concerns over what we are trying to 
accomplish here. So, I would appreciate more timely responses 
by the witnesses and/or the Majority staff who is in charge.
    With that, first question. With regards to the stimulus, it 
is interesting that Lawrence Summers, who was President 
Clinton's Treasury Secretary, and the top economist for Barack 
Obama's Administration, Jason Furman [inaudible] the concern 
with this pouring of more money into the economy, feeling it 
may overheat and cause inflation. Mr. Strain, what would you 
say in response to that concern?
    Mr. Strain. I share that concern. I think it is commonly 
argued that right now, Congress should err on the side of doing 
more rather than doing less, and I think that is a reasonable 
way to think about the problem, given the balance of risks. I 
think there are more risks to doing too little than to doing 
too much.
    But that is not to say that Congress should pass another 
stimulus that is untethered to an assessment of the actual 
economic need. The actual economic need is maybe a few hundred 
million dollars, something like that. And so, you want to have 
the fudge factor to do more than less. But there are real risks 
to dumping another $2 trillion on the economy right now, and 
one of those risks is a few months where there is some 
troubling price inflation.
    Mr. Luetkemeyer. One of the things that concerns me is, 
there is some money in here, about $350 billion, to bail out 
the States. Now, I realize some of the States are struggling a 
little bit, but in my own State of Missouri, we ended the 
lockdown in mid-May. In 2020, we had a 5 percent increase in 
revenue over 2019. Yes, last year we had an increase in revenue 
over 2019. We have a 4.4 percent unemployment rate, and over 
200,000 jobs that are being unfilled right now.
    It seems as though there are a number of States which are 
well-managed, from the standpoint of the COVID problem, and 
their own budgets and revenues now. It would appear that this 
$350 billion is going to bail out some States that are not very 
well-managed. What would your comment be on that, Mr. Strain?
    Mr. Strain. Look, Congressman, I think you are right that 
as a general matter, State and local finances are looking a lot 
better than many people thought that they would, and a good 
number of States are basically even with 2019, in terms of 
revenue. That really varies from State to State. States that 
rely a great deal on tourism have taken a big hit. States that 
rely relatively more on sales taxes from in-person activities 
have taken a big hit.
    And so I do think that, looking across all of the States, 
there is a hole in terms of revenue of around $100 billion to 
$150 billion. And so, I think it is appropriate for Congress to 
help States with pandemic-related revenue losses, but not to 
help States that just use rainy-day funds, not to help States 
bail out pensions. And there are some States that aren't going 
to need that much help at all.
    Mr. Luetkemeyer. I appreciate that. Yes, I can tell you, I 
live very close to the Lake of the Ozarks there in central 
Missouri, which is one of the premier recreational 
destinations, especially in the summertime. And they actually 
had a record amount of visitation last year. So, I think being 
open is a big key. It is interesting to me, with the COVID 
lockdowns--and I have made this comment before--you look at 
Florida and New York and they are roughly the same population; 
one is 21 million and the other is 19 million. New York had 
only twice as many deaths last year due to COVID as what 
Florida did. And yet, Florida is open and California is locked 
down, and Florida has a greater elderly population, probably, 
than New York.
    So, as a result, I am concerned that we are trying to bail 
somebody out here instead of actually giving money to--putting 
it in places where it actually needs to be targeted to be 
helpful.
    I understand my time is up. Thank you very much for your 
responses.
    Chairwoman Waters. Thank you very much, Mr. Luetkemeyer, 
and there are many things that I think I could advise you about 
publicly. The ranking member and I have an agreement to work 
out our concerns, and we are in charge, so I didn't appreciate 
your comments earlier.
    Mr. Luetkemeyer. I appreciate getting information on time.
    Chairwoman Waters. The gentlewoman from Iowa, Mrs. Axne, is 
now recognized for 5 minutes.
    Mrs. Axne. Thank you, Madam Chairwoman, and thank you, 
everyone, for being here today.
    Mr. Anthony, I would like to start with you. Cities and 
towns, of course, across the country have been fighting to 
support people and the communities for the last year as COVID 
hit our shores, and I know that nationally, we have lost about 
1 million jobs in the State and local government sectors. One 
of the areas that I have been really focused on, and this 
committee has as well, is housing. Could you tell us a little 
bit about how the budget losses and the job losses for State 
and local government employees have made it more difficult to 
keep people in their homes, and what are some of the steps that 
you have had to take to overcome that?
    Mr. Anthony. Thank you, Congresswoman, for that question. I 
spoke earlier about the eviction level. We are looking at about 
40 million renters who are on the cliff of being evicted.
    The second data point is that this is a pent-up loss for 
even real estate owners of about $7 million of revenue or 
renter income that will be lost.
    And the final thing is, in city governments and local 
governments, period, we are seeing homelessness increase. So we 
are dealing with all of those issues and responding. And I 
think what this relief package would do is it would help us to 
be able to provide programming for those challenges.
    Mrs. Axne. I appreciate you saying that, and I thank you so 
much, because one thing I know can be an issue for so many of 
our constituents during this time is finding the help that they 
need and the different programs that are available to them, in 
a timeframe by which they need them.
    So what can you tell us about how we are helping people 
navigate some of these programs so that they can keep a roof 
over their heads?
    Mr. Anthony. Cities all over America have created rental 
assistance programs during this time, but first of all, helping 
to get those dollars specifically to nonprofits and to create 
programs so that people will be able to come in and get those 
dollars. Mayors and councilmembers have created small business 
programs as well, small business loan programs, rental 
assistance programs, and I think that if we think about the 
level of government where people can knock on the front doors 
of mayors and the city halls, it is local government.
    So, I think that what we are asking for is direct dollars. 
We know that we have lost over 1 million jobs. We anticipate 
more than $90 billion of additional revenue loss this year. So, 
I am begging that we get the dollars out to that level. But I 
appreciate that question because it has been desperate in some 
cities, not all, but I will tell you that in 95 percent of the 
cities--rural, small, as well as urban--the homeless challenge 
is increasing.
    Mrs. Axne. It is an issue that we face right here in Des 
Moines, Iowa, so I absolutely understand. And that fits, 
actually, really well, with something that I have been working 
on since last spring, which is getting more resources for 
housing counselors, who can help people figure out what is 
going on, how they can save their money, how they can stay in 
their homes, et cetera.
    You brought up some facts here, but the last estimates I 
saw showed almost $60 billion in rental assistance is needed, 
and with the forbearance that has been offered for mortgages, I 
think a lot of people are going to need help with that. And, of 
course, we saw, after the 2008 financial crisis, that 2 million 
people who worked with housing counselors were 3 times as 
likely to get loan modifications and then not go into 
foreclosure or redefault, which is a great thing for our 
communities.
    Many of those same benefits--lower costs, more stable 
housing--can also help renters when they are in tough straits, 
like you mentioned. Ms. Murguia, or anyone else, does that seem 
like something--these housing counselors--that we could benefit 
from right now?
    Ms. Murguia. Yes. Thank you, Congresswoman. I really 
appreciate your leadership on this. I know you have seen and 
understood the efficacy of using housing counseling programs 
and those community-based organizations, those nonprofits, who 
are so effective in reinforcing the importance of the steps to 
be taken, the information that needs to be provided, to the 
most hurt families, the most impacted families, and their 
success rate, as you pointed out, is really high.
    So, the $700 million-plus for COVID housing counseling 
assistance is absolutely necessary. UnidosUS has the largest 
Hispanic housing counseling network in the country, and we have 
seen first-hand the role that they play, because they are 
trusted partners; they have the cultural and language 
competencies to be able to provide that service.
    Chairwoman Waters. Thank you. The gentlewoman's time has 
expired.
    Mrs. Axne. Thank you.
    Chairwoman Waters. The gentleman from Ohio, Mr. Gonzalez, 
is recognized for 5 minutes.
    Mr. Gonzalez of Ohio. Thank you, Madam Chairwoman. Quick 
check, Dr. Strain, can you hear me?
    Mr. Strain. Yes, sir.
    Mr. Gonzalez of Ohio. Yes, very good. Thank you. First, I 
want to just comment on a couple of things. Some of my friends 
on the other side of the aisle have commented that, now is not 
the time to worry about deficit spending or where it is going, 
and I would offer this.
    We are in a pandemic. There is an emergency, and there is a 
need to act. I agree with that. But I would offer that it is 
always our responsibility to make sure that we are spending 
taxpayer dollars wisely and effectively. That is always a 
priority. You never get to put that on hold. And I think what 
we have done to date has been pretty good, not perfect. But 
when we are talking about a $1.9 trillion bill, which, let's be 
honest, the justification is pretty poor for a lot of the 
spending in there, and a lot of it would be wasteful, I can't 
possibly support it.
    The second thing I would say is, if there is one thing that 
President Biden said in his inaugural address that I think 
every single Republican agreed with, and most across the 
country, it is that we need to come together. We do need to 
come together as one country and solve our problems, and we 
need to take the temperature down politically. Unfortunately, 
everything that has been done from that speech to today, 
including this spending bill, has gone completely counter to 
that. And so, I would ask my Democratic colleagues, whom I know 
are sincere in this, please help on that, because I will help 
anybody who wants to work on that. I don't care who you are.
    But if we are going to just jam wish list items, like a $15 
minimum wage, which we know isn't a bipartisan solution, if we 
are going to jam a $1.9 trillion spending bill with no 
Republican votes, that is not going to bring anybody together, 
and you know it. And so, I would ask you to think wisely about 
where we are as a country, culturally, emotionally, before we 
go down that path. And it sounds like that train has already 
left the station, but I would ask you to think twice.
    Now, Dr. Strain, you talked about the unemployment rate. 
Currently, where is the bulk of the unemployment? What sectors 
of the economy?
    Mr. Strain. The sectors of the economy that have been hit 
the hardest are sectors that feature in-person interaction, so 
sectors like retail, trade, leisure, and hospitality. Those are 
the sectors that have borne the brunt of unemployment.
    Mr. Gonzalez of Ohio. And a $15 minimum wage would do what 
to those sectors?
    Mr. Strain. It would be a major challenge to workers in 
those sectors and a major challenge to businesses in those 
sectors as well.
    Mr. Gonzalez of Ohio. Yes, I would argue it would be 
completely counterproductive, and we asked, where is the 
unemployment? It is not an interest rate question. It is not a 
stimulus check issue. It is a virus issue. I think we all know 
that, and I think that is what you are saying, and that screams 
towards quickly getting targeted relief in the form of 
vaccines, testing, and anything we can do to defeat the virus. 
The faster we defeat the virus, the faster we come back. Now, 
we could pass that, I would argue, with broad bipartisan 
support later tonight if we wanted to.
    And then, the second piece I want to touch on is the 
stimulus checks. You mentioned in your testimony--you say, for 
example, direct checks to households earning six-figure incomes 
that have not experienced employment loss are an unnecessary 
and imprudent use of government spending. I agree with that 100 
percent. Have you seen anyone anywhere who has intellectually 
or economically justified the notion that we would be paying 
people thousands of dollars who have not been economically 
harmed by the pandemic? What is the rationale for that? Have 
you seen it?
    Mr. Strain. Congressman, I haven't seen a rationale that I 
found compelling to support those checks. I think you could 
make an argument for targeting checks that went to low-income 
households that have been really hurting in this economy. But 
checks to households earning $150,000, $200,000, and up, there 
really is just very little justification for that policy.
    Mr. Gonzalez of Ohio. Yes, thank you for that. I agree. I 
want to be targeted. I want to help. Anybody who has been 
affected by the COVID pandemic economically, I want to be there 
to help them. I think most Republicans would agree with that. 
This overshoots by a mile, and, again, I would encourage my 
Democratic colleagues to come back and work with us. I yield 
back.
    Chairwoman Waters. Thank you. The gentleman's time has 
expired. The gentleman from Illinois, Mr. Casten, is recognized 
for 5 minutes.
    Mr. Casten. Thank you, Madam Chairwoman. And thank you to 
our witnesses. Before I start with my questions, I want to just 
respond to something Mr. Barr said. He had noted that a lot of 
the public is watching us right now, and it is really important 
to understand this budget reconciliation process. This isn't 
about being partisan, nonpartisan, or bipartisan. We pass 
things by majority rule. The Senate has this goofy filibuster 
rule that certain things require 60 votes, and budget 
reconciliation is the way we pass things by simple majority. 
The last time that my colleagues across the aisle controlled 
everything--the House, the Senate, and the White House--they 
used budget reconciliation to pass a massive tax cut to 
corporations and to take away people's healthcare.
    Now that we are in control, we are using budget 
reconciliation to address the fact that we are in a pandemic 
that has killed 443,000 Americans, and left 12 percent of 
Americans hungry, and 60 million people out of work. That is 
the right way to use your majority. I do not apologize for it, 
and please do not say that this is somehow not worth doing in 
the name of bipartisanship or question why that [inaudible].
    I want to move from there to a question for Mr. Spriggs. We 
have done a lot of funding so far. We have a lot of support for 
small businesses. The PPP program, while it had some slow 
rollouts and some hiccups that we are all aware of, has really 
been a lifeline for a lot of small businesses, certainly in my 
district and across the country. But I think we have lost sight 
of the fact that it was designed, first and foremost, to 
protect labor. There were no credit checks. It was run with the 
SBA. The size of your loan was a function of your employment, 
and your ability to convert that into a grant was a function of 
making sure that you used it for labor. Again, not perfect, but 
it has kept a bunch of people off of unemployment rolls, off of 
welfare, not needing COBRA, and out of needing food assistance.
    Because we could not get support across the aisle to 
support State and local funding, the PPP has really protected 
people who work for the private sector or certain classes, 
nonprofits. And following your introductory comments, Mr. 
Spriggs, we have had about 1.3 million public sector job losses 
since February. Correct me if I'm wrong on the math. If we do 
not get State and local aid, Mr. Spriggs, do you think that 
that 1.3 million number will increase, decrease, or stabilize?
    Mr. Spriggs. Thank you for the question, Congressman. If 
you don't provide the direct aid, and you have heard this 
directly from Mayor Anthony, we are going to continue to lose 
jobs at the time we need those workers in place, both to 
implement the plans, as the mayor pointed out, that cities and 
local communities are trying to put in place, but also to make 
sure that we have a full court press in getting people 
vaccinated, because we can't do this from the air. We cannot 
just do this using the internet and assume that people can log 
on and make appointments. This is going to take direct action 
from the local level and local governments.
    Mr. Casten. Thank you. Mr. Anthony, is there anything you 
would like to add to that? Personally, like we all do, I have a 
neighbor who is a schoolteacher. I have friends who are cops. 
They didn't get any of this protection. Anything you would like 
to add or put color on [inaudible]?
    Mr. Anthony. Yes, I would just add that Dr. Spriggs has 
said it very clearly. If we really want our economy to come 
back, it has to start at the local level, and get done quickly. 
Our leaders are able to deal with, through distributions, PPE 
and the vaccine distribution and education. I know that our 
mayors and council members from our rural, as well as urban, 
communities are ready to partner with the Federal Government to 
get us back on the right track. So thank you, Congressman.
    Mr. Casten. Okay. Thank you. Mr. Strain, I have been 
reading a little bit of your bio, and I am a Dartmouth guy, so 
I won't hold your Cornell degree against you. But if I am 
following right, you went to work at the Fed in 2005, and the 
Census Bureau in 2008, and you have been AEI since 2012, right? 
Do I have that timeline about right?
    Mr. Strain. Yes, that is about right, Congressman.
    Mr. Casten. I am not going to ask you for particulars, but 
have you had any raises during that period?
    Mr. Strain. Have I had any raises?
    Mr. Casten. Yes, has your salary gone up since the 2008 
time frame?
    Mr. Strain. Yes, my salary has gone up.
    Mr. Casten. Mine has, as well. As you have earned more 
money, did you find that you increased your spending? Do you go 
out to dinner more often? Do you ever buy a nicer car, buy a 
nicer house?
    Mr. Strain. I did not buy a nicer car, but I have increased 
my spending.
    Mr. Casten. I mention that because the Federal minimum wage 
has not gone up during that period. It has been locked since 
2009. And as you run your economic forecasts that presume that 
somehow if you raise wages to the wealthiest, they will 
increase their spending and live a nicer life, but if you raise 
it for the poorest, they are not going to be willing to pay 
more for a sandwich [inaudible] suggested by some of your math. 
Thank you. I yield back.
    Chairwoman Waters. Thank you very much. The gentleman from 
Tennessee, Mr. Rose, is recognized for 5 minutes.
    Mr. Rose. Thank you, Madam Chairwoman, and thanks to 
Ranking Member McHenry and Representative Hill for having this 
committee hearing today. I am [inaudible] into the 117th 
Congress. I am grateful that we are finally getting under way 
with the business of the country.
    Today, we are discussing the next COVID stimulus package 
before the ink has even dried on the last one. As my colleagues 
have cited, Republicans and Democrats have negotiated 5 COVID 
relief packages totaling $3.5 trillion to address the pandemic 
and the economic crisis. A significant portion of the funds 
Congress has already allocated are yet to be spent by agencies, 
and I believe that before providing additional relief, we must 
do a thoughtful review of the programs that have been most 
effective and then determine whether to place additional 
targeted funds.
    Our economy is recovering. The best way to stimulate 
economic growth is to safely reopen businesses and schools. Our 
focus now needs to be on providing timely, targeted, and 
temporary funding to ensure adequate testing and vaccination 
supplies get to States across the country. Finally, I would be 
remiss if I didn't mention that I find this hearing to be 
largely a show, as Democrats in the House, Senate, and the 
White House have already moved forward on the path to pass 
another COVID package that would completely cut out the voices 
and input of Congressional Republicans.
    Over the past few weeks, I have spoken with private, not-
for-profit colleges back home in Tennessee, and they are 
distressed by President Biden's and the Democrats' stimulus 
plan. The President's plan includes funding for all public 
colleges and universities, but fails to acknowledge the 
majority of private, nonprofit institutions that have felt the 
repercussions of this pandemic just like their public 
counterparts. There are more than 1,700 degree-granting 
private, nonprofit colleges and universities located across the 
country which collectively enroll over 5.1 million students and 
provide more than 1.2 million administration, faculty, and 
staff jobs to the economy. Low-income students, students 
regardless of their college choice, face increased challenges 
during this time as well as members of faculty and staff. While 
these institutions have had access to Federal relief through 
the CARES Act, we cannot cut them out of future relief.
    Dr. Strain, do you believe there should be parity in the 
treatment of these higher education institutions, and could you 
speak to the potential negative effects of treating them 
differently?
    Mr. Strain. Thank you, Congressman. I think as a general 
matter, pandemic-related relief should be broad-based and 
should be available to businesses that meet a certain 
threshold. I think it was appropriate, for example, to limit 
PPP grants to businesses of a certain size class. I think it 
would be inappropriate to target relief on specific industries 
or the specific characteristics of businesses in those 
industries.
    Mr. Rose. Thank you. We have talked extensively about how 
the $15-per-hour minimum wage would destroy millions of jobs, 
and I think we can all agree that at a time when our national 
unemployment has only just begun to recover from the economic 
pain imposed by the COVID-19 lockdown last year, we should not 
be jeopardizing the economic security of more than a million 
American workers. Dr. Strain, can you discuss the 
disproportional negative impact this one-size-fits-all approach 
would have on smaller and rural communities like those in the 
6th District of Tennessee?
    Mr. Strain. I think it would have a significant impact, 
Congressman. I think in many American States that are more 
rural, you have a lot more workers who earn lower wages in the 
labor market. And if you are talking about doubling the minimum 
wage in those States or more than doubling it, you are talking 
about a policy that is going to impact directly, one-third, 
pushing up to the really middle-of-the-wage distribution 
workers in that State. And that is just going to make it a lot 
harder for them to find jobs.
    Mr. Rose. Thank you, and I see my time has expired. Madam 
Chairwoman, I yield back.
    Chairwoman Waters. Thank you very much. The gentlewoman 
from Massachusetts, Ms. Pressley, is recognized for 5 minutes.
    Ms. Pressley. Thank you, Madam Chairwoman, and thank you to 
our witnesses for joining us here today. We have been living 
with this pandemic and the disparities that it has laid bare 
for nearly a year, and yet we have consistently fallen short of 
fully delivering relief than meets the scale and scope of 
people's hurt. These hearings are a critically important 
reminder that our work is not done.
    The stock market may have recovered, but our communities 
have not. My colleague across the aisle said this feels like a 
show. Well, in this show, we are centering on the American 
people, and it is important that we never lose sight of the 
plot, and the plot is the people. The inherent and outstanding 
disparities in our public health and economic systems, coupled 
with the slow and inequitable rollout of vaccination efforts 
across this country, mean that our hardest-hit communities--
Black, Brown, indigenous--will continue to shoulder the burden 
of the pandemic and will be the last to recover, if at all. In 
fact, a CBO report projects that while the economy may rebound 
in the next year, it will take until 2024 for employment to 
return to pre-pandemic levels.
    Mr. Spriggs, for those who look to conflate the two, can 
you please explain the consequences of an economic recovery 
without a labor recovery?
    Mr. Spriggs. Thank you, Congresswoman. We have had this 
problem in our economy for the last several recoveries where we 
have the economy rebound much quicker than the labor market, so 
we have to pay attention to that. When we look at things like 
unemployment assistance and people projecting when they think 
the economy will recover versus when the labor market will 
recover, we have to have our ears open, because in September, 
it isn't clear whether the labor market will recover. It is 
hopeful that because of the vaccinations, our economy will be 
much closer to normal operation. But workers will still find it 
very difficult to reconnect, and the additional support in 
their unemployment insurance will still be necessary.
    So, we cannot do what we did in the past, which is have 
everyone declare a victory because the stock market is up or 
because the unemployment rate nationally is 5 percent or 4\1/2\ 
percent.
    Ms. Pressley. Thank you.
    Mr. Spriggs. That is not cause for celebration.
    Ms. Pressley. Thank you. And we know that women of color 
accounted for all jobs reported lost in December. So what does 
a slow labor recovery mean for them specifically?
    Mr. Spriggs. This is why we need to act now, because when 
you are unemployed for more than 6 months, it becomes 
increasingly difficult for you to find a job. If people become 
homeless, then it becomes impossible, and so we can't let this 
story take place. We need to get the labor market back as 
quickly as we can to have a robust labor market, which is why 
we must raise the minimum wage, because it is specifically 
Black women who would be left behind if we continue on the path 
we are on now. While most Americans are on their way to a $15 
minimum wage, it is disproportionately Black women who are not, 
and we need robust wage growth so that we can have sustained 
growth, and so that these kinds of recovery efforts won't be as 
expensive to the government and our economy won't be as 
fragile.
    Ms. Pressley. Thank you. And so to that end, since Black 
women are disproportionately bearing the brunt of this hurt, 
and that certainly is true when it comes to housing, there is 
an ACLU analysis of national eviction data. Black women were 
filed against for eviction at double the rate of White renters, 
and were more likely to be denied housing because of it. In my 
district, the Massachusetts 7th, the report found that during 
the first month of the pandemic, 78 percent of all evictions in 
Boston were filed in communities of color.
    So that is why I am partnering with Representatives Tlaib, 
Ocasio-Cortez, and Neguse to introduce the Emergency 
Homelessness Assistance Act, to provide nearly $5 billion 
dollars in additional funding to support those experiencing 
homelessness. It is responsive to the needs of community and 
the hurt that people are experiencing. This funding includes 
support for additional vouchers and the acquisition and 
development of non-congregate shelters. Mr. Anthony, many 
cities have looked to purchase and convert hotels and motels 
into shelter spaces. Why is it critical to give cities and 
local providers the flexibility to make these long-term 
investments?
    Mr. Anthony. Thank you, Congresswoman, for that question. 
And you know very well, being a former city council member in 
Boston, the challenges that local governments are facing. We 
need that flexibility. We need the resources first and the 
flexibility to create solutions that will address our local 
needs specifically to the cities, and we thank you for your 
support on that.
    Chairwoman Waters. Thank you. The gentlewoman's time has 
expired. The gentleman from Wisconsin, Mr. Steil, is recognized 
for 5 minutes.
    Mr. Steil. Thank you, Madam Chairwoman. I appreciate your 
recalling us back in here a month into Congress. Some of our 
colleagues here are in a big hurry to spend more taxpayer 
dollars and enact a liberal wish list. And just a few months 
ago, we were sitting here in this committee, and committee 
Democrats on this committee referred to that liberal spending 
wish list as Washington gamesmanship, party politics. One 
member described it as a waste of time, but here we are.
    This is not what Wisconsin wants. It is not what the 
country wants. People in Wisconsin, people across the country, 
we want to get back to work. We want our way of life back. We 
want to get back to work. Let's talk about where we are today. 
Congress and President Trump have already provided $4 trillion 
in coronavirus relief, including $915 billion that was 
authorized less than 6 weeks ago, and I know, that is what Joe 
Biden calls a down payment. But by the latest estimates, almost 
a trillion dollars of that has been allocated has not yet been 
spent.
    And so, let's conceptualize what this means. We have 
already provided $12,000 for every single person in the United 
States. That is $48,000 for a family of four. You can buy a new 
Cadillac car with that kind of money. And about a third of it--
and this is what is important--nearly $4,000 per person, hasn't 
even been spent. And now my colleagues want to move forward and 
spend another $1.9 trillion, rammed through on a party-line 
vote. That is another $5,700 per person.
    And a big portion of these funds would be earmarked for 
projects like bailing out States, States like Illinois, that 
have been fiscally irresponsible for years. The Illinois 
Pension Fund system is absolutely out of control. Meanwhile, in 
my home State of Wisconsin, as in many other States, tax 
collections turned out to be better than expected. The 
Wisconsin Department of Administration just a few days ago 
reported that, ``Our State's fiscal condition has remained 
remarkably resilient,'' pointing out the continued tax revenue 
growth in States like Illinois. Why should Wisconsin have to 
bail out States like Illinois? They should not.
    But wait, there is more. My colleagues also want to use 
this package to push through a whole host of job-killing 
measures. Killing the Keystone Pipeline and private sector 
infrastructure is not enough. And I appreciate, Dr. Strain, you 
discussing some of these policy proposals today. We are living 
in a time when far too many small businesses have shut their 
doors and workers are out of work. Sixty-one percent of adults 
in the United States are currently in the labor force. We 
haven't seen labor force rates at this level consistently since 
the Carter Administration. If we want to get people back to 
work, now is not the time for job-killing ideas.
    It is time to slow down the spending spree, and focus, 
focus, focus. Focus on what is important. Focus on getting 
vaccines to everyone who wants one. Focus on getting kids back 
in the classroom. Focus on reopening the economy safely and 
responsibly. And the spending spree that we are discussing here 
today does not do that. I yield back.
    Chairwoman Waters. Thank you very much. The gentleman from 
Massachusetts, Mr. Lynch, is recognized for 5 minutes.
    Mr. Lynch. Thank you, Madam Chairwoman, and I want to thank 
the witnesses as well for your attendance and your testimony.
    Mr. Spriggs and Mr. Anthony, in my area, we have, and I 
think in most cities around the country, we have a real mix of 
small landlords, and then we have some major housing developers 
as well. Frankly, I have been surprised at the willingness of a 
lot of landlords, big and small, to exercise forbearance with 
their tenants. That is just what I am seeing in my community. 
Some of my big landlords have come out ahead of Congress, ahead 
of the CDC to say, you know what? We are not going to evict 
anyone. We are going to work with you. And yet, at the same 
time, those big landlords now are saying, look, we have a large 
number of workers, electricians, plumbers, laborers, carpenters 
that they have kept on the payroll to make sure that the 
quality of life in those big developments is maintained. And, 
again, I have smaller landlords who are really, because they 
only have one or two rental units, really hard-pressed.
    Mr. Spriggs and Mr. Anthony, could you talk about what you 
are seeing and what you are hearing from your positions and 
what you might recommend in terms of providing relief to those 
small landlords, and also the larger responsible landlords that 
have been trying to do the right thing?
    Mr. Spriggs. Yes. I will go first, Congressman, and thank 
you for the question. This is why rent assistance is necessary. 
It is the best way to help out the landlords, and it is, in 
many ways, the first way to help out the landlords. If quite 
small landlords are in the awkward position of having to demand 
arrears all at once, it is going to be a very difficult 
situation. You mentioned it is uncomfortable for many small 
landlords. That is why I think the most proven and effective 
way to do it is through rental assistance.
    Mr. Lynch. Thank you. Mr. Anthony?
    Mr. Anthony. Yes, I will just quickly add that--thanks, 
Congressman--we are looking at a $7 billion backlog of landlord 
rent on properties that they own, and I think that we need to 
have some assistance there. And local governments are coming up 
with programs, rental assistance programs, to stop those 
evictions. And the real impact is not happening to the wealthy. 
You are finding a lot of us who are blessed, are moving to 
rural communities and buying new properties. But those who are 
poor can't leave, and they are stuck with the bill of owning 
these properties and having to pay full rent.
    Mr. Lynch. Ms. Murguia, would you like to add anything to 
that, please?
    Ms. Murguia. I would. Thank you, Congressman. I think just 
building on the previous comments, we are finding, certainly 
within our communities of color, Black and Hispanic landlords 
are actually more likely to work with tenants to keep them in 
their homes, but, yes, they are facing great financial 
struggles, too, because of the pandemic. And we do find that 
these smaller landlords, especially those paying off a 
mortgage, face some of those challenges that we are hearing 
about, small businesses and cash-strapped small businesses, 
with not enough money in their pockets at the end of the day.
    And so, that is why we think this is another opportunity 
for the Federal Government to partner with community-based 
lenders, including community development financial institutions 
(CDFIs), to perhaps deploy short-term aid or low-interest 
financing to help struggling landlords with assets and who are 
being solvent through this pandemic. Of course, it is nothing 
more than just making sure we are able to get direct assistance 
and funding into the hands of those renters, and we do know 
that our Latino renters, in particular, use any payments that 
they are getting to pay for basic needs, like rent. So, I 
appreciate your question and the comments of my colleagues.
    Mr. Lynch. Thank you. And, Madam Chairwoman, I just want to 
thank you. I know you have been focused on this issue like a 
laser. I do want to say to some of my Republican colleagues, 
you know I love you, but I can tell by the way you talk about 
this, that you have never stood in an unemployment line. And I 
have, being an ironworker for 20 years, and you are constantly 
working yourself out of a job. I think you might have a 
different perspective if you had actually stood in an 
unemployment line. The fact that you got a check for $1,000, 5 
months ago, really doesn't amount to much. So with that, I 
yield back. Thank you, Madam Chairwoman.
    Chairwoman Waters. Thank you so very much. The gentleman 
from South Carolina, Mr. Timmons, is now recognized for 5 
minutes.
    Mr. Timmons. Thank you, Madam Chairwoman. The only thing 
that is going to solve the problem we are currently in is to 
reopen the economy as quickly and safely as possible. It seems 
today we are talking about three different buckets of spending. 
One is the easier-to-reopen bucket, and that is the bucket that 
I believe that we should be focusing most of our time and 
effort on. The second bucket is the easier-to-stay-closed 
bucket, and while that bucket was appropriate in March of last 
year when we had our 15 days to slow the spread, 300-plus days 
later it is no longer the best use of our resources, and we 
should not throw money into that bucket. And then the last 
bucket, and I don't even really know what to call it--I guess 
you could call it the progressive wish list, policies that have 
no chance of becoming law outside of a global pandemic. You can 
call it the let-no-crisis-go-to-waste bucket.
    And let's start there. I have heard it proposed that we are 
going to cancel $1.7 trillion in student loan debt. That has 
nothing to with COVID. There is also granting amnesty to 20 
million illegal immigrants. I want to fix immigration. I think 
that is something that we should do this Congress, but the idea 
that we would do it through budget reconciliation is just 
irresponsible. It is not going to happen, and that is really 
not part of COVID relief conversations, that are very 
important, when we should be spending our time talking about 
politics that will actually help.
    A $15 minimum wage? I can tell you what that will do to my 
business in Greenville, South Carolina, and the other small 
businesses in Greenville and Spartanburg, South Carolina. That 
makes a lot of sense in New York City and Chicago, but it will 
severely impede our ability to not only successfully overcome 
COVID, but to even survive as a small business in my district. 
So, a $15 minimum wage just doesn't make sense all across the 
country. Now, again, that is not a conversation that I'm 
unopposed to having, but one-size-does-not-fit-all.
    The second bucket--let's go back--the easier-to-stay-closed 
bucket. You have State and local bailouts. Any money spent with 
State and local governments should be focused on reopening the 
economy safely and quickly. Bailing out unfunded pension 
liabilities and poor fiscal policy for the last decade is just 
not an appropriate use of Federal tax dollars for COVID relief. 
Then, you have stimulus checks for people who make six figures 
or more, who have had no income disruption. That is not 
appropriate. And unemployment benefits that disincentivize 
returning to work also not helpful.
    We need to spend all of our time and resources on the first 
bucket. How do we make it easier to reopen? Vaccines are 
clearly the number one issue there. Anyone who wants a shot 
should be able to get it as quickly as possible. That will 
allow all of our economy to reopen, and we can get past the 
pandemic. Schools are another very important way. Even if we 
reopen the economy, if our schools are not reopened, parents 
are not going to be able to go to work because they have to 
keep the kids at home. We need to give the schools the 
resources necessary to reopen. That is additional PPE. That is 
additional testing. Whatever the schools need to reopen, that 
is what we need to be spending our time and resources on.
    Last, but certainly not least, we need to address 
businesses that have been disproportionately affected by COVID, 
and that is tourism, hotels, and restaurants. We have done 
that. We have already spent $3.5 trillion. We can have 
conversations about more, depending on how long it takes for 
the vaccine to be fully distributed. But we just need to spend 
all of our time on how we are going to make it easier to reopen 
the economy. We are going to have $30 trillion of debt within 
the next year or two, but probably in the next month or two, if 
this passes.
    The global community is not going to let us borrow $40-, 
$50-, or $60 trillion. The only reason we are getting away with 
it right now is because the dollar is the global currency and 
we are able to spend beyond our means, but the global community 
will find alternative currency eventually. And if our debt is 
called, if we lose the global currency, our entire economy is 
going to fall apart. So, again, we must reopen as safely and as 
quickly as possible, and that is where we should be spending 
our time and resources. With that, Madam Chairwoman, I yield 
back.
    Chairwoman Waters. Thank you very much. The gentlewoman 
from Michigan, Ms. Tlaib, is recognized for 5 minutes.
    Ms. Tlaib. Thank you so much, Madam Chairwoman. Look, I 
think the biggest job killer right now in our country and 
around the world is COVID, so let's just be very clear. That is 
the job killer in our country, and that is what we need to 
truly address right now, to pretend that it doesn't even exist, 
to talk about these different kinds of economies that are not 
connected to the fact that we need to protect our public 
health.
    Madam Chairwoman, I don't know if you realize this, but the 
United States is on a course of losing about 500,000 people. 
That is half a million lives lost because of the incompetence 
of this past Administration. Just in my home State of Michigan, 
we have lost nearly 16,000 of our neighbors. For comparison, in 
the entirety of Australia, New Zealand, Singapore, and Japan 
combined, there has been less than 7,000 deaths. Think about 
that for one moment.
    It did not have to be this way. The stock market might have 
bounced back, but everyday Americans--our neighbors, our 
communities, like my residents--are suffering. The measure of 
our nation's greatness should not be the gains of Wall Street. 
It should be in how our most vulnerable are taken care of. 
Since the beginning of the pandemic last March, we have senta 
$1,200 check and another $600 check, a total of $1,800 to our 
neighbors. That is an average of $163 per month. That is 
absolutely shameful. It is the reason why our food bank lines 
are growing longer in my district, and people are falling 
behind on their rent and losing their homes.
    I have been calling for a $2,000 recurring monthly direct 
payment since the start of the pandemic. And Mr. Spriggs, I 
want to know, if we fail to provide sufficient economic support 
for the most vulnerable among us in the coming months, what 
will be the impact on our economy and, by extension, on 
everyday people?
    Mr. Spriggs. Thank you, Congresswoman. We are in the 
situation we are in because of our high level of inequality. 
The size of these packages is an indication of what it takes to 
actually fill the gap because people at the bottom of our 
income distribution don't have enough money. We scar them and 
scar our economy. It will be harder to reconnect them. When we 
have the virus under control and employers go to meet with 
these workers, it will be harder to find them because they will 
have lost their homes. They will have lost contact with the 
labor market. We have to keep households engaged and as intact 
as possible so that when the economy does recover, people are 
spending their money on growth and not on paying back debts.
    So the importance here is keeping this growing from not 
just the physical, not just the mental, not just the spiritual, 
but you don't want economic disparity.
    Ms. Tlaib. Absolutely. The vaccine can't fix the problem of 
our savings accounts, right? It can probably keep us healthy, 
but, again, how does that extend to the fact that this economic 
downfall that is happening is going to be something that is 
going to be hard to address if we don't do something now?
    I represent the third-poorest congressional district. The 
majority of my neighbors were living paycheck to paycheck prior 
to this pandemic, so just imagine now this layer of issues. I 
also want to push back against the deficit hawks and 
Republicans who worry more about the budget than getting 
Americans money so that they can keep food on their table and a 
roof over their head. They had no issue with granting 
corporations and the wealthiest of Americans hundreds of 
billions of dollars' worth of tax cuts, yet they speak out now 
when we need to help everyday Americans, when this is their 
money that they are asking for, and they are saying, this is 
the time for the government to be about people and to help 
them.
    So, Dr. Spriggs, do you agree that those billions of 
dollars of lost tax revenue could have funded greater financial 
relief to our Americans right now?
    Mr. Strain. We saw many corporations didn't have the 
liquidity they should have had because after we gave the 
corporations the tax cut, they found themselves fragile going 
into this pandemic. They required government assistance as 
well. So those tax cuts didn't build up the reservoir that we 
were told would be there to make those corporations much more 
resilient. If those corporations with their billions weren't 
more resilient, then what does it say of these households 
living paycheck to paycheck?
    Ms. Tlaib. Thank you. I know my time is up. I apologize. 
Thank you so much.
    Chairwoman Waters. Thank you. The gentleman from Texas, Mr. 
Taylor, is recognized for 5 minutes.
    Mr. Taylor. Thank you, Madam Chairwoman. I appreciate being 
in this hearing. Mr. Anthony, I want to talk to you a little 
bit about municipal finance running local governments. I am 
very blessed to represent Collin County, Texas, and we have 
some very successful cities, and our County is very well-run. 
We have some of the safest streets, and some of the best 
schools. I think it is a testament to the people in our 
community who consistently elect competent leaders who then, in 
turn, run fiscally conservative cities, counties, and school 
districts. And as such, not only are our taxes low, but we keep 
decent reserves in our local governments. And so when COVID-19 
came, we watched a modest drop in municipal revenues, and the 
CARES dollars that went to the Collin County government 
actually, which is Collin County has about a million, so it got 
us a direct CARES dollar contribution. That money was then 
distributed to the cities, and the cities actually went ahead 
and distributed that to the citizens.
    I have heard a lot of talk here today about rental 
assistance. Rental assistance actually came from the cities to 
the citizens, so there was no need for Federal assistance, 
because the cities and the counties could actually go ahead. 
They were in good fiscal shape, well-run physically. They could 
actually go ahead and help their citizens. And I remember 
visiting the Allen Area Food Bank, which is a food pantry in 
Allen, Texas, and they had gotten a $10 million grant from 
Collin County. The county government gives them $10 million to 
help feed people, but that was possible because the county was 
well-run. It had the resources. It had gas in the tank.
    And so as we talk about more CARES dollars going to cities, 
what I am kind of concerned about is that my cities and my 
county have been well-run, and I am worried that you are 
talking about taking money from my voters and giving it to 
other places that were not well-run, because those are the ones 
where taxes were high, and so they are more likely to have 
revenues drop off very quickly, and where they didn't have 
money in the bank and they were unable to handle the problem in 
front of them. So, how should we think about this to be sure 
that we are fair to people who did a good job, who had money in 
the bank, who were well-run, Mr. Anthony? How should we think 
about this problem?
    Mr. Anthony. Yes, thank you, Congressman Taylor, for that 
question. I think I will start from a place of assumption that 
municipal leaders are responsible, that they, in fact, have to 
balance their budget based upon the tax base that they have. 
And perhaps in your county, region, it is very diverse, and 
perhaps the wealth of that county may be a little different 
than some other counties and cities. So my assumption is that, 
again, local governments do manage their budgets.
    The other thing I will say is that your description of how 
the CARES Act dollars came into the State, into the county, and 
then, in fact, were shared with the city is a story that we 
want to happen all over America, but it has not happened that 
way all over America. And the fact that your county was able to 
get the CARES Act dollars and then provide them to the 
nonprofits is the way we want it to happen. The thing that we 
want to stop is having to argue with counties and States to get 
the money. We think that your mayors in your county, in your 
district, should get direct dollars. So, I commend your county 
leaders and say that all of our leaders attempt to be good 
stewards of dollars.
    Mr. Taylor. Thank you. I appreciate that. Obviously, I feel 
very fortunate.
    Mr. Anthony. Yes.
    Mr. Taylor. And I am very proud of the leaders in my 
community, and it is a team effort to build Collin County into 
a really, really terrific county, and it has been humbling, to 
say the least, to watch the struggles. And they are very real, 
very personal struggles that individuals in my county have 
confronted, like the single working mom who just lost her job 
and is trying to find toilet paper, and getting that phone 
call. It is very hard, very humbling calls that we have had as 
leaders, but I am proud of what we have been able to do to step 
up, and I appreciate your thoughts on this subject. And I yield 
back.
    Mr. Anthony. And I am proud of you as well.
    Mr. Taylor. Thank you.
    Chairwoman Waters. Thank you. The gentlewoman from North 
Carolina, Ms. Adams, is recognized for 5 minutes.
    Ms. Adams. Thank you, Madam Chairwoman. Thank you for 
convening this hearing today. And to our witnesses, I want to 
thank you as well for sharing your perspectives. Mr. Anthony, 
let me take a moment to ask you some questions about housing 
insecurity, which has been worsened by this pandemic. According 
to the Census household post-survey, we know that of an 
estimated of 15.1 million adults living in rental housing, 1 in 
5 adult renters are not caught up on their rent, according to 
the data collected in January. But let me just skip over and 
talk about a little problem that is going on in my district.
    In Charlotte-Mecklenburg, we are seeing the impacts of the 
pandemic-fueled housing insecurity. In fact, it has played out 
before our very eyes. We have a large and growing homelessness 
situation. Our community calls that largest settlement the Tent 
City. Tragically, each and every day, more and more tents join 
that community. These people are actually living on the street, 
because the pandemic does not allow the social distancing in 
these centers. They have needs that vary from basic healthcare, 
to mental health services, job training, hunger, clothing, et 
cetera. So in addition to the recent $25 billion in emergency 
rental assistance, what more should Congress do to provide the 
funding solutions and support to our cities and counties in 
addressing the ever-growing homeless problem, and does the 
pandemic give us an opportunity to tap into new and innovative 
solutions?
    Mr. Anthony. Thank you, Congresswoman Adams. I know your 
mayor, Mayor Vi Lyles, and I have worked with the county as 
well to address the issues and questions about housing 
instability. And we all know that having a roof over your head 
is one of the things that creates a feeling of safety, a 
quality of health, and wealth. And what we are seeing and 
hoping is that there could be dollars in the rental assistance 
and housing stability programs to help residents to get a roof 
over their head and to get some security. So what we would want 
is some dollars, again, going directly to those counties and 
cities, who can actually create programs and partnerships with 
neighborhood associations.
    Ms. Adams. Thank you for that, for your comments. Mr. 
Johnson, when Congress created the Paycheck Protection Program 
in the CARES Act, we found through various studies, 
particularly by the Brookings Institution, that businesses in 
majority Black neighborhoods received PPP loans less 
frequently, they waited longer for their loans, and they were 
more likely to apply through fintechs or online lending 
platforms, which frequently carry less favorable interest 
terms. So, how can we ensure that minority communities have 
adequate and equitable access to programs like PPP, and that 
they are not victims of disparate treatment by financial 
institutions in carrying out these programs?
    Mr. Johnson. Thank you, Congresswoman. First, with the 
current consideration, there is a requirement for small 
business owners, if they want to go in for a second PPP, they 
have to demonstrate that they had a loss of up upwards of 25 
percent in one quarter of last year. For many small businesses, 
particularly for African-American businesses, if they had a 25 
percent loss last year, they are no longer in business, so that 
should be addressed in this upcoming bill.
    Second, you have to ensure that the lending institutions 
that are closer to those businesses have access and preference 
for those small businesses, whether it is CDFIs, local credit 
unions, and others, that are closer to the ground, and 
particularly Black banks, because many of those institutions 
are the lenders for African-American small businesses.
    Ms. Adams. Thank you for that. I just want to add one 
thing. As I talk to some of the banks and some of the 
individuals who were trying to get these loans, many of the 
banks are just now providing information to their customers, 
and some of these are small businesses that were unbanked and 
so forth. So that continues, I guess, to be a problem. 
Hopefully, we can figure that out, but thank you very much. 
Madam Chairwoman, I yield back.
    Chairwoman Waters. Thank you very much. The gentleman from 
New York, Mr. Zeldin, is recognized for 5 minutes. And I am 
going to turn the gavel over to Mr. Perlmutter, as I must leave 
to attend to other business at this point. Thank you all very 
much.
    Mr. Zeldin. Thank you, Madam Chairwoman. Thank you to the 
witnesses for being here today. Thank you to Ranking Member 
McHenry as well. I represent the 1st Congressional District of 
New York, which is located on the east end of Long Island in 
Suffolk County. Long Island was hit very hard by COVID-19 from 
the earliest stages of the outbreak here in our country, and 
the local governments in my district all stepped up to the 
plate in a very big way to provide critical services when my 
constituents needed it most. In light of historic shortfalls 
caused by this ongoing outbreak, our local governments have 
been struggling to recover fiscally. Additional relief from 
Congress is likely coming, but it cannot be an across-the-board 
free-for-all. Additionally, the State and local government 
relief being discussed should not be a bailout of budgeting 
failures unrelated to the pandemic.
    Democratic leadership has decided to try to push forward a 
$1.9 trillion COVID-19 relief package through the budget 
reconciliation process, ignoring that the Federal Government 
just passed another massive coronavirus recovery bill just a 
few weeks ago. Our country cannot afford a partisan approach to 
COVID-19 relief, like the Democrat-flawed HEROES Act from last 
Congress. We must target our relief to where it can pack the 
greatest punch. Congress provided support for State and local 
governments in the CARES Act, but limited it to support for 
local governments with more than 500,000 in population.
    I did not agree with that population limit, which is why I 
have worked across the aisle with my New York colleague, 
Congressman Antonio Delgado, to reintroduce H.R. 199, the 
Direct Support for Communities Act. This would drive support to 
the most local levels of our counties, towns, cities, and 
villages without that population threshold, and driving it to 
those who desperately need the assistance.
    Dr. Strain, in a recent AEI blog posted on January 26th, 
you stated, ``The best thing that Biden is proposing is the 
Federal grants to State and local governments, which are 
providers of essential services and major employers. The 
decrease in tax revenue caused by the pandemic left these 
governments with no choice but to lay off workers, especially 
since Congress failed to provide funding for States and 
localities in the previous relief packages.'' It is clear that 
the fiscal solvency of all levels of government is important 
for economic recovery. Can you elaborate on the importance of 
the health of all levels of government as we talk about the 
health and growth of the overall U.S. economy?
    Mr. Strain. Yes, Congressman. Thank you for the question. 
Right now, State and local unemployment levels are about 1.4 
million below where they were prior to the pandemic, so there 
are about 1.4 million fewer jobs in State and local governments 
than there were in February of 2020. That includes about 
600,000 fewer education sector workers. And so, if we want the 
overall economy to recover, if we want the national labor 
market to heal, and if we want there to be enough personnel in 
schools for schools to reopen, I think it really is critical 
that Congress replace the pandemic-related revenue losses that 
have been experienced by States and localities, if for no other 
reason than to support the national economic recovery.
    Mr. Zeldin. Yes. I am a member who supports additional 
funding for State and local governments, but I would not want 
it to be a one-size-fits-all approach. I would not want us to 
be inefficient with it. I believe that it is important, as 
stewards of tax dollars, to ensure that it is not just going to 
State governments or the largest cities, but it is going to 
some of the local governments that have been on the front lines 
of responding to this pandemic. I had towns that had balanced 
budgets. They had AAA bond ratings. They were doing a really 
good job with their finances, and then they got hit hard by 
this pandemic.
    In New York State, we have unique issues where the State 
had a deficit before we got hit, and it was exacerbated. New 
York City has financial issues, correct, but it got exacerbated 
by this pandemic. Plus, it is also important that our nation's 
largest mass transit system, the MTA, as well as the Port 
Authority and some of these others are being heard and that we 
are being responsive, but have to be smart in how we do it. 
That is extremely important, and that is our responsibility, 
working together on both sides of the aisle. I yield back.
    Mr. Perlmutter. [presiding]. The gentleman yields back. 
Another gentleman from New York, Mr. Torres, is recognized for 
5 minutes.
    Mr. Torres. Thank you. We often speak of a single American 
economy, but in truth, there is no single economy in America. 
The economic reality for Americans varies widely depending on 
your ZIP Code, and often depending on the color of your skin. 
Take, as an example, New York City. In the South Bronx and West 
Farms, the unemployment rate is 25 percent, which is 
Depression-level unemployment. Right across the river in the 
Upper East Side, the unemployment rate is 5 percent. New York 
City, much like America itself, is a tale of two economies. And 
so my first question is, what are your thoughts on how to best 
confront the crisis of Depression-level unemployment in 
communities of color in places like the South Bronx? And I will 
start with Mr. Spriggs.
    Mr. Spriggs. Thank you for the question, Congressman. It is 
to recognize these disparities. When you hear folks say that, 
oh, if you add more money to unemployment benefits, then this 
would discourage work. It doesn't discourage those workers who 
live in the South Bronx. They are living in absolute fear 
because they don't know when they will get their next job. 
Their data are clear. They will suffer long-term unemployment. 
They may well run out of unemployment benefits. So if you 
design unemployment and ignore these realities, if you ignore 
the reality that those workers have no savings, they truly live 
paycheck to paycheck, and missing one paycheck means they are 
in debt, this $600, $400, whatever we add to the unemployment 
check, is vital for them.
    So it is important that we not model on who is not 
unemployed, and understand in this downturn specifically, it is 
a clear set of workers who are unemployed, who have severe 
challenges. And we can't legislate based on somebody's notion 
of what those workers look like. When we added the extra money 
to the unemployment check, everybody howled that workers 
wouldn't return to work. The evidence was absolutely clear. 
Workers returned to work. That was not a discouragement for 
people to get back to work, because real people who live in 
those communities know you need a job. An unemployment check is 
not a job, and in the face of this downturn, it is not a 
discouragement for them.
    Mr. Torres. I have a question about State and local aid. 
State and local governments, largely through no fault of their 
own, have seen a catastrophic loss of revenue caused by an 
economic crisis the likes of which we have not seen in a 
century. New York City has a $4 billion deficit over the next 
year. New York State has a cumulative deficit of $60 billion 
dollars over the next 4 years. State and local aid matters not 
only to State and local governments; it matters to the larger 
ecosystem of community-based organizations that depend on the 
stability of local and State government. These are community-
based organizations that often heavily employ people of color, 
and heavily serve communities of color.
    One example that comes to mind in my district is Acacia 
Network, which employs thousands of people. More than 85 
percent of its essential workforce are people of color who 
depend heavily on local and State aid. So when it comes to 
local and State aid, can you share with the committee your 
thoughts on what is at stake for communities of color and the 
ecosystem that heavily serves and employs them? And this 
question is for Mr. Anthony, Mr. Johnson, and Ms. Murguia.
    Ms. Murguia. I would be happy to take the first stab at 
that. Thank you, Congressman. It is a great question. We have 
been talking about how there is an ecosystem at the State and 
local level, particularly at the local level, and, yes, it is 
State and local governments. But it is these community-based 
nonprofits that are the lifeline, the safety nets, for so many 
in our communities. These affiliate clients are low income, 
mostly now ravaged by the hospitality industry layoffs. They 
are the essential workers that we are trying to make sure we 
can get assistance to.
    But when you see funding cuts for these nonprofits, you see 
their safety nets shut down. These affiliates are there to 
provide much-needed resources, oftentimes setting up food 
pantries and direct assistance, and information. And these are 
trusted partners in those communities, so getting that 
information, whether it is about vaccines, or economic 
assistance, or, again, food, they are a lifeline. They are a 
safety net, and we need to make sure that we are supporting 
State and local governments, but also, and in addition to, 
these community-based organizations. I'm proud of Acacia, which 
is a UnidosUS affiliate as well. Thank you.
    Mr. Anthony. Congressman, I will add on behalf of cities 
all over America, that we know that if there is stress on local 
government in the ability to provide support for the nonprofit 
community, we know that the communities of color will suffer 
first.
    Mr. Perlmutter. And, Mr. Anthony, I don't mean to cut you 
off, but the gentleman's time has expired, and it has been a 
very long hearing for all of the witnesses, that is for sure. 
So, Mr. Torres, thank you for your questions. I am going to 
recognize Ms. Williams from Georgia for 5 minutes.
    Ms. Williams of Georgia. Thank you, Mr. Chairman, for 
convening this hearing on the critical need for additional 
funding to assist our families and communities that have been 
impacted by COVID-19. Our constituents are suffering, and are 
in desperate need of assistance from the Federal Government. My 
colleagues across the aisle keep expressing their outrage at 
the fact that we are spending necessary dollars to help 
families impacted by a deadly pandemic, but were silent on the 
$1.9 trillion tax scam that benefited the wealthiest in the 
country.
    My question is for you, Dr. Spriggs. In your testimony, you 
stated that there is a misguided belief that simply reopening 
businesses will solve the current unemployment crisis. What 
will it take to actually help the economy recover and ensure 
that long-term unemployment is resolved?
    Mr. Spriggs. Thank you, Congresswoman. The data is clear 
because we have a huge variation in levels of shutdown, what 
has been shut down, and it is clear from the economic evidence 
that it is not these orders. It is the disease. People are 
responding to the risk, and they aren't going out because of 
the risk, and it is hurting the businesses because of that. So 
the real issue is, can we solve the disease? Can we get it 
under control? Can we throw everything at it that we possibly 
can? Simply reopening is not going to get people on airplanes. 
It is not going to get them into a theater. It is not going get 
them to a live music venue. It is not going to get them flying 
to Disney.
    Ms. Williams of Georgia. Thank you, Dr. Spriggs. Like my 
colleagues, I also want to have people get back to work, and I 
want our economy to recover and work for the people. So, Dr. 
Spriggs, could you tell us, in your opinion, what happens if we 
reopen too soon or have a patchwork of States reopening and do 
not have a coordinated reopening?
    Mr. Spriggs. My fear is that too often, that will be 
accompanied by lowering our barriers on the safety issues, and 
we would reignite the disease. We were warned of that going 
into this fall. People ignored it, and now we have the disease 
on a path we are so uncertain of. We are hopeful that it has 
peaked, but it has peaked now with variants that are even more 
dangerous, so we can't take our eye off the ball. We must 
concentrate on safety first.
    Ms. Williams of Georgia. As we have heard, communities are 
still being ravaged by the pandemic. Millions of workers are 
struggling to find work, and countless families are facing a 
looming eviction crisis. There is currently an eviction 
moratorium in place by the CDC halting evictions through March 
31st. However, we know that several States, including my home 
State of Georgia, have been continuing with the eviction 
proceedings for months. Mr. Anthony, as we work to pass the 
necessary proposals in President Biden's rescue plan to assist 
families, how can we ensure that CDC eviction moratoriums are 
being enforced?
    Mr. Anthony. Congresswoman Williams, thank you for that 
question. I think what we need to do is to have our local 
leaders, our mayors and our council members work with the local 
legal center to make sure that the rights of those people are 
not taken for granted. And I think that local leaders are 
committed to that by the programs that they have created, and 
the mayors, again, in your region are models for that. Atlanta 
and other mayors are doing an amazing job in trying to make 
sure that evictions do not occur without some place for people 
to live.
    Ms. Williams of Georgia. Thank you, Mr. Anthony. As we work 
towards slowing the spread of COVID-19 and ensuring that the 
majority of the country is vaccinated, we must continue to 
provide emergency funding to help families and communities 
recover. Thank you, Mr. Chairman, and I yield back the balance 
of my time.
    Mr. Perlmutter. Thank you. The gentlelady yields back her 
time. The gentleman from Illinois, Mr. Garcia, is recognized 
for 5 minutes.
    Mr. Garcia of Illinois. Thank you, Mr. Chairman, and all of 
the witnesses, and I want to thank Chairwoman Waters and the 
ranking member for holding this hearing. This Congress has to 
deliver more relief, and we have to do it fast. And I applaud 
our witnesses for joining us today to talk about how our 
communities across the country are experiencing this pandemic.
    I would like to ask Ms. Murguia a question regarding 
housing. I thank you for joining us today. As you know, I 
represent a working-class Latino district, and communities like 
mine have been hit especially hard. Essential workers in my 
neighborhood worry about getting their family sick when they 
come home from work. Especially in times like this when money 
is tight, intergenerational living puts entire families at 
risk. And a report came out last month saying that one-quarter 
of Latinos in Illinois think they will miss their rent payment. 
Families are worried about losing their homes. Can you talk a 
little bit about why it is so important to keep families in 
their homes, and tools like rental assistance and counseling 
that can help do that?
    Ms. Murguia. Yes. Thank you, Congressman. Thanks for your 
leadership on so many issues, but particularly this one. I know 
we have worked on the impact of systemic inequalities and how 
that has impacted communities of color in terms of our Latino 
community, and we are seeing that in healthcare, but of course 
now economically through the pandemic, and in housing in 
particular, and it has been devastating. Our Latino workers are 
the essential workers, and they are being crushed right now by 
this pandemic.
    And I would just say it is absolutely essential for us to 
up the housing counseling assistance funding right now. The 
Housing Counseling Program gives that early intervention that 
really does empower renters and homeowners to stay in their 
homes, and this support is also accessible to mixed-status 
families who have been cruelly left out of Federal assistance. 
So we do know that there is a high success rate as well. In 
terms of when families and individuals are able to get that 
counseling, it is 3 times more likely to allow them to stay in 
their homes. So we do understand that that helps us prevent 
homelessness and eviction by helping these renters locate 
secure and retain affordable rental housing or stay in their 
homes.
    So, housing counseling improves outcomes, and that helps 
create stability for these families, and in our economy, so it 
is very important. And what we have found, and as you know, in 
Illinois, Unidos affiliates, like the Resurrection Project, 
have the trust of communities. They have the cultural 
competency and are able to provide the linguistic support to be 
able to effectively connect with these families. That is going 
to be true for housing. It is also going to be true for 
vaccines, which we know have to be more equitable in terms of 
their distribution, and to gain the confidence for our 
community to do that.
    So, across-the-board, we know that this nonprofit network, 
the community-based networks, become key. UnidosUS has the 
largest Latino housing counseling network in the country, and 
it has proven to be very effective, but we need to grow that 
footprint and its impact with more funding. Thank you, 
Congressman, for your leadership.
    Mr. Garcia of Illinois. Thank you, Ms. Murguia, and as a 
former housing counselor, I couldn't agree with you more. On 
the special drawing rights, I would like to ask Dr. Spriggs, 
whether it is the virus or the economy? We talk a lot about how 
we are all in this together, but if we don't keep people safe, 
we will keep spreading the virus, and if we don't get money 
into people's pockets, we won't see economic growth.
    But that is true on a global scale, too. Like many others 
in my neighborhood, I moved to this country from Mexico. It 
matters to me and my community that Mexico is able to fight the 
virus effectively, and, of course, it matters to us here in the 
U.S., and that the global economy recovers. The AFL-CIO is a 
major proponent of the International Monetary Fund (IMF) 
issuing special drawing rights. Could you talk a little bit 
about what those are and why a large issuance is so important? 
You have about 33 seconds.
    Mr. Spriggs. Thank you so much for the question and for 
your leadership on banking issues. Yes, it is vital that 
governments not face fiscal constraints when it comes to them 
responding on the global scale, and that is why we want these 
special drawing rights. It is not a time right now for finger 
pointing and arguing about which countries we think were 
profligate or anything like that. It is time to let them be 
unfettered in responding, and we don't want them to go into 
early austerity. You don't want them to start cutting their 
budgets and cutting their services because that will hurt the 
rate of recovery for the global economy. And they are all going 
to turn to wanting to export to the United States as their 
number-one answer if we force them into austerity.
    Mr. Perlmutter. Thank you. Thank you, Dr. Spriggs. The 
gentleman's time has expired, and now we will recognize Mr. 
Auchincloss from Massachusetts for 5 minutes.
    Mr. Auchincloss. Thank you, and thank you all for being 
here. Our nation's response to this pandemic has revealed 
significant gaps in our domestic ability to rapidly deploy key 
medical equipment and supplies in the face of ever-changing 
requirements. The Biden Administration has taken action since 
day one to accelerate vaccine deployment, in part by invoking 
the Defense Production Act (DPA), but the reality is that it 
will be a while before we have the supply to meet the need. In 
Massachusetts, we have the personnel and equipment needed to 
distribute vaccines. We just don't have the vaccines themselves 
in sufficient supply.
    My question is for Mr. Anthony. We know that the Defense 
Production Act could be invoked to provide PPE, like N95 masks, 
gloves, and gowns. These are in short supply, and we must ramp 
up their production for States and local governments. As we 
begin to implement our mass vaccination campaign, it appears 
that the supply of the vaccine components will be the limiting 
factor. How can the DPA be used to address this bottleneck for 
States and local governments? How can we use the DPA to 
actually expand the supply of vaccinations themselves?
    Mr. Anthony. I think that one of the things that most 
citizens have an assumption on, Congressman, is that most 
cities have access to the distribution and supply of vaccines, 
and, in fact, probably 90 percent of cities do not. It is a 
State- and county-level process. What we are hoping is that you 
will partner with those cities, those neighborhoods, those 
churches, and those places in the community so that we can get 
the vaccine in the arms of people very quickly, especially 
people of color.
    In my State of Florida, where I grew up, they are, in fact, 
using one of the high-class, I would say, grocery store chains 
to get access, and it is not working because those citizens 
don't have access. So, local government is the answer.
    Mr. Auchincloss. Thank you, Mr. Anthony. I will yield back 
my time.
    Mr. Perlmutter. The gentleman yields back. Thank you, Mr. 
Auchincloss, and I don't think we have any more Members. To our 
panelists who have shown incredible stamina, thank you all very 
much. I would like to thank you all for your testimony today.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    Again, thank you all very much for your diligence, your 
stamina, and your testimony today. And with that, this hearing 
is adjourned.
    Mr. Anthony. Thank you, Mr. Chairman.
    Mr. Perlmutter. Everybody have a good day.
    Mr. Johnson. Thank you. Have a nice day.
    Mr. Perlmutter. You, as well.
    Ms. Murguia. Thank you.
    [Whereupon, at 2:19 p.m., the hearing was adjourned.]


                     APPENDIX
                     
                     February 4, 2021
                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                          [all] 
</pre></body></html>
